IN THE
SUPREME COURT OF THE UNITED STATES
VINCENT HOLTON,
Petitioner,
vs.

Number

UNITED STATES OF AMERICA
Respondent.
/

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
COMES NOW the petitioner, VINCENT HOLTON, by and through
undersigned counsel and pursuant to Sup. Ct. R.39, and moves this Honorable Court
for leave to file the attached Petition for Certiorari in the Supreme Court of the
United States without costs and to proceed in forma pauperis.
In the lower courts, the Petitioner was formally adjudicated unable to afford
counsel and undersigned counsel was appointed for him under 18 U.S.C. Section
3006(a) of the Criminal Justice Act; accordingly, the Petitioner has not attached an
affidavit of insolvency.

Respectfully Submitted,
s/Gregory A. Samms
GREGORY A. SAMMS, ESQ.
Counsel for Petitioner
113 Almeria Avenue
Coral Gables, FL 33134
(786) 953-5802 (tel)
(786) 513-3191 (fax)
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing was served
via U.S. Mail upon The Solicitor General, United States Department of Justice,
Washington, D.C. 20530 and upon all counsel of record, this 6th day of May, 2021.

s/Gregory A. Samms
___________________________
Gregory A. Samms, Esq
Florida Bar No. 438863

IN THE
SUPREME COURT OF THE UNITED STATES
VINCENT HOLTON,
Petitioner,
vs.

Number

UNITED STATES OF AMERICA
Respondent.
/

_______________________________________
PETITION FOR A WRIT OF CERTIORARI
TO
THE UNITED STATES COURT OF APPEALS
IN AND FOR THE ELEVENTH JUDICIAL CIRCUIT
________________________________________
DECLARATION VERIFYING TIMELY FILING

Petitioner, VINCENT HOLTON, through undersigned counsel, and pursuant
to SUP. CT. R. 29.2 and 28 U.S.C. § 1746, declares that the Petition for Writ of
Certiorari filed in the above-styled matter was e-filed and placed in the U.S. mail in

a prepaid first-class envelope, addressed to the Clerk of the Supreme Court of the
United States, on the 30th day of April, 2021.
GREGORY A. SAMMS, ESQ.
Attorney for the Petitioner

By:

s/Gregory A.Samms
Gregory A. Samms, Esq.

April 30, 2021

113 Almeria Avenue
Coral Gables, FL, Florida 33134
Telephone No. (786) 953-5802
sammslaw@gmail.com

IN THE
SUPREME COURT OF THE UNITED STATES
__________________________________________________________________
______
VINCENT HOLTON,
Petitioner,
vs.

Number

UNITED STATES OF AMERICA
Respondent.
__________________________________________________________________
______
PETITION FOR A WRIT OF CERTIORARI
TO
THE UNITED STATES COURT OF APPEALS
IN AND FOR THE ELEVENTH JUDICIAL CIRCUIT
__________________________________________________________________
______

GREGORY A. SAMMS, ESQ.
COUNSEL FOR PETITIONER
113 Almeria Avenue
Coral Gables, FL 33134
(786) 953-5802 (tel)
(786) 513-3191 (fax)
Florida Bar No. 438863

IN THE
SUPREME COURT OF THE UNITED STATES
VINCENT HOLTON,
Petitioner,
vs.

Number

UNITED STATES OF AMERICA
Respondent.
/

_______________________________________
PETITION FOR A WRIT OF CERTIORARI
TO
THE UNITED STATES COURT OF APPEALS
IN AND FOR THE ELEVENTH JUDICIAL CIRCUIT
________________________________________
VINCENT HOLTON respectfully petitions the Supreme Court of the United
States for a Writ of Certiorari to review the judgement of the United States Court of
Appeals for the Eleventh Judicial Circuit rendered and entered in Case No. 1616194-AA of that Honorable Court as a mandate on March 4, 2021, which affirmed
the judgement and sentence of the United States District Court for the Southern
District of Florida.

ii

QUESTIONS PRESENTED
1.

Whether the District Court Wrongly Denied Petitioner’s Request for a
Jury Instruction on Entrapment?

2.

Whether the Court Erred by Allowing the Government to Present to the
Jury Evidence of Two Conspiracies When the Evidence Showed That
There was Only a Single Conspiracy for Multiple Objects?

3.

Whether the Court’s Failure to Grant the Petitioner’s Motion for
Discovery Allowed the Defendant to be Convicted in Violation of the
Fifth Amendment Due Process Clause?

4.

Whether the Court Erred When It Sentenced the Petitioner Under
924(c) When the Indictment Listed Multiple Enhancement Criteria
While a General Verdict of Guilty did not Specify Whether the Verdict
Was Based on Conspiracy to Commit a Hobbs Act Robbery Which is
not a Crime of Violence or Conspiracy to Commit a Drug Trafficking
Offense?

iii
5.

Whether the District Court Erred When It Denied the Appellant’s
Motion to Dismiss the Case for Outrageous Conduct?

LIST OF PARTIES
The parties in this proceeding or persons who have an interest in the
outcome of this case are as follows:
1. Vincent Holton, Appellant.
2. United States of America, Appellee.
3. Benjamin Coats, Assistant United States Attorney.
4. Joaquin Padillia, AFPD.
5. Jason Grey, Attorney of Lance Cannon.
6. Lance Cannon, Co-defendant.
7. Jamie Galvin, Assistant United States Attorney.
8. Gregory A. Samms, Esq., Attorney for Appellant.
9. Ursula Ungaro, United States District Court Judge
10. Juan Antonio Gonzalez, United States Attorney.
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

iv
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

iii

TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

iii

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

iv

REFERENCE TO THE OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . .

1

STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2

ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

9

REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . . . . . .

41

CONCLUSION . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

42

CERTIFICATE OF SERVICE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

42

APPENDIX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A
Appendix A1 Mandate & Opinion of 11th Circuit Court of Appeals………..A1
Appendix A2 Judgment……………………………………………….…..…A2
Appendix A3 Objections to the PSI Report…………………………………A3

TABLE OF AUTHORITIES

v
PRIMARY AUTHORITY:
1. Ah Sin v. Wittman, 198 U.S. 500 (1905)

PAGE(s)
23

2. Alleyne v. United States 133 S.Ct. 2151 (2013)

32

3. Batson v. Kentucky, 476 U.S. 79, (1985)

23

4. Bolling v. Sharpe 347 U.S. 497 (1954)

22

5. Braverman v. United States, 317 U.S. 49, (1942),

16, 17

6. In re Gomez, 830 F.3d 1225 (11th Cir. 2016)

30, 32

7. In re Pinder, 824 F.3d 977, (11th Cir. 2016).

26, 27, 32

8. Johnson v. United States, 135 S. Ct. 2551 (2015).

26, in

passim
9. Kinsella v. United States ex rel. Singleton, 361 U.S. 234, (1960) 34
10.Leocal v. Ashcroft, 543 U.S. 1, (2004)

28

11.Mathews v. United States, 485 U.S. 58, 63, (1988)

10

12.Ocasio v. United States, 136 S. Ct. 1423 (2016)

29

13.Oyler v. Boles, 368 U.S. 448 (1962)

23

14.Sherman v. U.S., 356 U.S. 369 (1958)

14

15.United States v. Aibejeris, 28 F.3d 97, 99 (11th Cir. 1994)

10

16.United States v. Batchelder, 442 U.S. 114, 125, (1979).

22

17.United States v. Becker, 569 F.2d 951 (5th Cir., 1978)

17

vi
18.United States v. Black, 750 F.3d 1053 (9th Circuit 2014)

36, 40

19.United States v. Bradfield, 113 F.3d 515 (5th Cir. 1997)

11, 14

20.United States v. Chemical Foundation, 272 U.S. 1, at 14-15.

23

21.United States v. Gutierrez, 343 F.3d 415, 419 (5th Cir. 2003)

10, 12

22.United States v. Hall, 500 F.3d 439, 442 (5th Cir. 2007)

10

23.United States v. Isnadin, 742 F.3d 1278, 1298 (11th Cir. 2014) 11
24.United States v. King, 73 F.3d 1564, 1568 (11th Cir. 1996)

9

25. United States v. Lively, 803 F.2d 1124 at 1126 (11th Cir. 1986) 12, 15
26.United States v. Marable, 578 F.2d 151 (5th Cir. 1978)

17, 18

27.United States v. Mayfield, 771 F.3d 417, 441 (7th Cir. 2014)

11

28.United States v. McGuire, 706 F.3d 1333, (11th Cir. 2013)

27

29.Milanovich v. United States, 365 U.S. 551 (1961)

18, 19

30.United States v. Nations, 764 F.2d 1073, 1080 (5th Cir. 1985)

10

31.United States v. Pistone, 177 F.3d 957, (11th Cir. 1999)

29

32.United States v. Ransfer, 749 F.3d 914, (11th Cir. 2014)

28

33.United States v. Roberts, 2014 U.S. Dist. LEXIS 162656
(C.D. Cal. May 30, 2014)
34.United States v. Russell, 411 U.S. 423, 93 S. Ct. 1637 (1973)

34, 36, 37
33, 35

vii
35.United States v. Sanchez, 138 F.3d 1410 (11th Cir. 1998)

33

36.United States v. Schlei, 122 F.3d 944 (11th Cir. 1997)

30

37.Wade v. United States, 504 U.S. 181, (1992)

24

38.Welch v. U.S., 136 S. Ct. 1257, (2016)

27

39.Yick Wo v. Hopkins 118 U.S. 356 (1886)

23

OTHER AUTHORITY
40. Fed. R. Crim. P. 16

22

41. United States Constitution Fifth Amendment

22, in

passim
42. 18 U.S.C.A. § 2113

19

1
REFERENCE TO THE OPINION BELOW
The trail court issued no written opinions in this matter. The Eleventh Circuit
Court of Appeals did issue a written, published opinion which, along with the
judgement of the trial court, is included in the appendix to this Petition.

STATEMENT OF JURISDICTION
This court has jurisdiction under 28 U.S.C. Section 1254 (1).

2

STATEMENT OF THE CASE
A.

Course of Proceedings and Disposition in the Court Below.
In June of 2015 Confidential Informant Miguel Gonzalez brought to the

attention of the DEA a potential drug target named Own Nunez. (D.E. 151, p. 128).
Based on the information provided by Miguel Gonzalez the DEA opened an
investigation. (D.E. 151, p. 129). Once the investigation began Nunez stated he
knew other individuals that could supply illegal drugs. (D.E. 151, p. 129). The DEA
and the confidential informant, Miguel Gonzalez then coordinated a meeting with
Owen Nunez that was audio recorded. (D.E. 151, p. 132). Once the meeting begins
co-defendant Lance Cannon shows up at the meeting with an unidentified male.
(D.E.151, p. 137). During the meeting discussions were had about the quantity and
price of the drugs. (D.E. 151, p. 139). Lance Cannon entered the conversation
discussing quantities of cocaine. (D.E. 151, p. 139). After the meeting ended Lance
Cannon and the unknown male left the meeting. Prior to this meeting Lance Cannon
was unknown to law enforcement. (D.E. 151, p. 145).
After the initial meeting, law enforcement coordinated another meeting on
June 24, 2015. (D.E. 151, p. 146). At this second meeting the Appellant appeared

3
along with Lance Cannon. (D.E. 151, p. 147). At this meeting Lance Cannon
discusses price and talks about his ability to distribute drugs through the northeast.
(D.E. 151, pp. 150-152). Petitioner was supposed to be the transportation. (D.E.
151, p. 153).
A third meeting was scheduled for July 16, 2015. (D.E. 151, p. 155). At that
meeting was the Appellant, Owen Nunez, confidential informant Miguel Gonzalez
and Lance Cannon. (D.E. 151, p. 156). At the meeting, Miguel Gonzalez requested
that Cannon bring one kilo for him to inspect. (D.E. 151, p. 157). Holton wanted to
bring Gonzalez and Nunez to a location where they could inspect everything at once.
(D.E. 151, p. 157). Holton then backed out of the discussion because he said he
would be the one to bring the one kilo for inspection. (D.E. 151, p. 158). At the end
of this meeting no arrests were made. (D.E. 151, p. 161). The C.I., then told his
DEA handlers that he felt the Appellant and Lance Cannon did not have drugs but
were trying to set up a robbery. (D.E. 151, p. 161). The C.I. believed that because
the defendants did not know how much money would be needed to purchase the
large amounts of cocaine that they were allegedly trying to sell. (D.E. p. 159, 165166). Based on the DEA’s belief that the defendants did not have any drugs for sale
the DEA backed out of any further investigations involving Petitioner and Cannon.

4
The DEA determined that the defendants were basically jokers and moved on from
any further investigation. (D.E. 151, p. 175).
After the DEA extinguished their investigation of the defendants the C.I.,
Miguel Gonzalez decided to initiate a stash house sting against the defendants in
order to generate money for himself. The C.I. made his living by being a confidential
informant initiating stings for the government in return for payment. The C.I. then
on his own initiative contacted Cannon to begin discussions again. [D.E. 152, p. 97,
117-119]. The C.I. then presented his idea of a stash house sting to the bureau of
Alcohol Tobacco and Firearms (ATF). [D.E. 152, p. 117]. The ATF agreed to
follow the C.I’s lead and had a meeting set up on October 23, 2015. [D.E. 152, p. 9,
117]. At the meeting was the C.I., the undercover ATF agent and Lance Cannon.
[D.E. 152, p. 11]. Lance Cannon was presented the stash house sting scenario. [D.E.
152, p. 8]. The agent tells Cannon that he is a disgruntled drug courier that wants
to rob his employers of the drugs that he transports for them. The agent explains
that Cannon is to make it look like he is not involved in the robbery and then
afterwards they can split the proceeds. [D.E. 152, p. 8].
A second and third ATF meeting is set up on October 28, 2015 and November
5, 2015. Attending these meetings are Cannon, the Petitioner along with the C.I. and

5
the agent. [D.E. 152 p. 23, 47]. The agent presents the Petitioner the stash house
sting scenario. [D.E. 152, p. 25].

The agent paints a violent situation where the

Petitioner would be faced with armed men in the imaginary stash house. [D.E. 152,
p. 8]. The defendants are presented with an opportunity to make over $800,000 in
one night. The agent tells them that he knows the layout of the stash house. The
agent additionally tells them that usually one man for sure is armed. [D.E. 152, p.
50]. The agent even offers the defendants a vehicle that they can use to do the
robbery with a trap in it to store their weapons. [D.E. 152, p. 80).
In response for the agents presenting this opportunity to be enriched with his
help, the Petitioner engages in puffery by saying that he has an organization that
transports drugs up north. [D.E. 152, p. 27]. The Petitioner is further enticed by
the agent making the job seem doable. [D.E. 152, p. 50]. The agent tells them he will
give the defendants the layout of the house, that one guy is definitely armed but
typically only two people are involved. [D.E. 152, p. 50]. The agent assures the
defendants that he will give them the intelligence necessary to complete the job.
[D.E. 152, pp. 50-51]. The agent also tells the defendants that he will meet them
afterwards to get his share. [D.E. 152, p. 19].

6
The agent admits during his testimony that but for this stash house sting the
defendants would be at home not charged with these crimes. [D.E. 152, p. 82].
Further the agent admitted that he created this crime by setting up the sting of the
defendants. [D.E. 152, p. 82].
The testimony of the confidential informant, Miguel Gonzalez revealed that
Mr. Gonzalez makes his living solely as a government informant. [D.E. 152, p. 9596]. He does drug stings for different government agencies and in returned is paid
by the government for the arrests that he helps to procure. [D.E. 152, p. 96]. Mr.
Gonzalez testified that it was his idea to set up the defendants for a stash house
robbery scenario and not the government’s. [D.E. 152, p. 117, 124]. Mr. Gonzalez
initiated calls to Cannon on his own initiative which he recorded and presented to
the DEA. [D.E. 152, p. 116-117]. In each of his recorded calls to Cannon Mr.
Gonzalez would entitle the recordings “cocaine robbery.” [D.E. 152, p. 111]. Mr.
Gonzalez was already contemplating setting up the defendants on a stash house sting
even before he presented the sting to them to see if the defendants were interested.
[D.E. 152, p. 111-112]. Mr. Gonzalez testified that it was his idea to tell the
defendants that the stash house would be armed. [D.E. 152, p. 119]. Mr. Gonzalez
then convinced the DEA to pick up the case and run the stash house sting. [D.E. 152,

7
p. 117]. Mr. Gonzalez made his own assessment that if presented with the robbery
scenario the defendants would agree to do it. [D.E. 152, p. 111-112]. After the DEA
dropped the case, the C.I. called the DEA and told the DEA that he had individuals
that he could set up for a sting. [D.E. 152, p. 117].
On November 13, 2015 the final meeting took place where the defendants
were lured to a location and arrested by federal agents. [D.E. 152 p. 61-62]. At the
arrest scene the defendants were in constructive possession of guns that were inside
the arrest vehicle. (D.E. p. 64).
At the close of the government’s case the Petitioner made a request of the
court that an entrapment instruction be given. [D.E. 152, p. 150]. Petitioner argued
that there was ample evidence that the government enticed the Petitioner into doing
a stash house robbery when it was never in the Appellant’s contemplation to do a
violent robbery. [D.E. 152, pp. 150-152]. After hearing argument from Petitioner,
the court denied giving the standard entrapment instruction to the jury. [D.E. 152,
p. 152].
At the conclusion of the trial, the Petitioner was convicted of all criminal
counts in the indictment that he faced, namely Count I conspiracy to commit Hobbs
Act robbery; Count II conspiracy to possess with intent to distribute cocaine 5

8
kilograms or more; Count III possession of a firearm in furtherance of a drug
trafficking crime and Count V felon in possession of a firearm and ammunition.
[D.E. 134].
On August 25, 2016, the United States Probation Department filed a PreSentence Investigation Report which scored the defendant with a total offense level
of 32 and a criminal history category of I. [D.E. 128 ¶ 91]. The probation
department calculated the guideline imprisonment range at 121 to 151 months.
However, due to the statutorily authorized minimum sentence for Count Two is
greater than the maximum of the applicable guideline range; therefore, the guideline
term of imprisonment is 240 months, under U.S.S.G. § 5G1.2(b). [D.E. 128 ¶ 91].
The basis of the 240-month mandatory sentence under 21 U.S.C. 841(b)(1)(A) was
a trafficking cocaine by possession and conspiracy to traffic cocaine that occurred
in North Carolina in 1993. [D.E. 152, p. 68]. The probation department further
found the defendant was subject to a term of 60 months imprisonment as to Count
Three to run consecutive to his other sentences pursuant to U.S.S.G. § 5G1.2(a).
[D.E. 128 ¶ 91].
The Petitioner filed objections to the PSI objecting to the determination that
the defendant was to receive a consecutive sentence under U.S.S.G. § 5G1.2(a).

9
[D.E. 126]. The Petitioner argued that it was improper to sentence the defendant for
having possession of a firearm in furtherance to a crime of violence, when the crime
that was the basis of the enhancement was a conspiracy to commit a Hobbs Act
robbery as alleged in Count I. [D.E. 126]. The court denied the Petitioner’s
objection to the PSI and sentenced the defendant consistent with the guideline
calculations of the probation department to 240 months plus 60 months consecutive
as required by count III, 18 U.S.C. 924(c). [D.E. 134].

ARGUMENT

I.

The District Court Wrongly Denied Petitioner’s Request For a Jury
Instruction On Entrapment
In the case at bar the Petitioner specifically asked the court, at the close of

the government’s case, for an entrapment instruction. The court refused to give the
standard entrapment instruction and by doing so took away from the Appellant any
realistic opportunity to defend himself. "[E]ntrapment as a matter of law is a
sufficiency of the evidence inquiry" which is reviewed de novo, "view[ing] all
facts and mak[ing] all inferences in favor of the government." United States v.
King, 73 F.3d 1564, 1568 (11th Cir. 1996). The court limits its review to "whether
the evidence was sufficient to enable a reasonably-minded jury to reach the

10
conclusion [beyond a reasonable doubt] that the defendant was predisposed to take
part in the illicit transaction." United States v. Aibejeris, 28 F.3d 97, 99 (11th Cir.
1994) (quoting United States v. Ventura, 936 F.2d 1228, 1230 (11th Cir. 1991)).
Ordinarily when reviewing a criminal conviction, we view the evidence, and
draw reasonable inferences, in the light most favorable to the verdict. United States
v. Hall, 500 F.3d 439, 442 (5th Cir. 2007). The evidence is sufficient to support a
finding of guilt if a rational trier of fact could have found that the evidence
established the elements of the offense beyond a reasonable doubt. Id.
Courts take the opposite approach, however, when reviewing a district
court's refusal to instruct on a defense. As with any exculpating defense, the
defendant is entitled to an entrapment instruction if he presents "evidence sufficient
to support a reasonable jury's finding of entrapment." United States v.Gutierrez,
343 F.3d 415, 419 (5th Cir. 2003); accord Mathews v. United States, 485 U.S. 58,
63, (1988). The question is whether the defendant identified or produced "evidence
from which a reasonable jury could derive a reasonable doubt as to the origin of
criminal intent and, thus, entrapment." United States v. Nations, 764 F.2d 1073,
1080 (5th Cir. 1985). Accordingly, we construe the evidence and make inferences
in the light most favorable to the defendant. Id.

11
A defendant is entitled to an entrapment instruction when there is
sufficient evidence from which a reasonable jury could find entrapment. It
follows that when a defendant's properly requested entrapment instruction
is undergirded by evidence sufficient to support a reasonable jury's finding
of entrapment, the district court errs reversibly by not adequately charging
the jury on the theory of entrapment. The critical determination in an
entrapment defense is whether criminal intent originated with the defendant
or with the government agents. Thus, the threshold question is whether the
defendant was predisposed to commit the offense. To assert an entrapment
defense successfully, the defendant must first make out a prima facie case
that the government's conduct created a substantial risk that an offense
would be committed by a person other than one ready to commit it. This
requires the defendant to show both (1) his lack of predisposition to
commit the offense and (2) some governmental involvement and
inducement more substantial than simply providing an opportunity or
facilities to commit the offense.
United States v. Bradfield, 113 F.3d 515 (5th Cir. 1997).
"Predisposition. . . refers to the likelihood that the defendant would have
committed the crime without the government's invention, or actively wanted to but
hadn't yet found the means." United States v. Mayfield, 771 F.3d 417, 441 (7th Cir.
2014). Predisposition "is measured prior to the government's attempts to persuade
the defendant to commit the crime." Id. at 436. "This Court has rejected the notion
that the predisposition analysis is one that occurs against a backdrop of fixed,
enumerated factors; instead, it has held that it is a necessarily fact-intensive,
subjective inquiry into a defendant's state of mind." United States v. Isnadin, 742
F.3d 1278, 1298 (11th Cir. 2014).

12
Even if there were more than enough evidence to convict a defendant on the
prosecutor's theory of the case, defendant's right to a jury instruction on the theory
of his defense is not cancelled, as long as there is even a small amount of evidence
in the record to support it. The law is clear that "the defendant 'is entitled to have
presented instructions relating to a theory of defense for which there is any
foundation in the evidence, even though the evidence may be weak, insufficient,
inconsistent, or of doubtful credibility.'" United States v. Lively, 803 F.2d 1124 at
1126 (11th Cir. 1986) (quoting United States v. Young, 464 F.2d 160, 164 (5th
Cir.1972)). When there is evidence sufficient to support a reasonable jury's finding
of entrapment, the district court's refusal of a properly requested entrapment
instruction constitutes reversible error. United States v. Gutierrez, 343 F.3d 415,
419 (5th Cir. 2003).
In the case sub judice the Appellant was never looking to do or become
involved in a robbery of drugs. That idea was the brain child of the confidential
informant who was looking to make a profit by setting up the Appellant and the coappellant. [D.E. 152, p. 117, 124]. He admitted that he brought the idea of a
robbery sting to the ATF after the DEA had determined that the defendants were
just jokers who had no ability to supply drugs. [D.E. 152, p. 116-117]. It was the

13
confidential informant who revived law enforcement interest by repackaging the
defendants as robbers. The informant did this in order to enrich himself. The
defendants never said they wanted to rob anyone. The idea of the robbery was
strictly a government creation that was concocted by the government informant.
Thus, though the defendants initially with their interactions with the DEA showed
an interest in selling narcotics it was the government who turned that lower level of
involvement into a weapon oriented confrontational crime. Therefore, the
defendants were entitled to show the jury that in fact they were enticed into doing a
crime that was never in their contemplation.
The critical determination in an entrapment defense is whether criminal
intent originated with the defendant or with the government agents. Thus, the
threshold question is whether the defendant was predisposed to commit the
offense. To assert an entrapment defense successfully, the defendant must first
make out a prima facie case that the government's conduct created a substantial
risk that an offense would be committed by a person other than one ready to
commit it. This requires the defendant to show both (1) his lack of predisposition
to commit the offense and (2) some governmental involvement and inducement

14
more substantial than simply providing an opportunity or facilities to commit the
offense. United States v. Bradfield, 113 F.3d 515 (5th Cir. 1997).
The ATF agent honestly stated that but for his engagement with the defendants
presenting the stash house robbery scenario the Petitioner would still be home. [D.E.
152, p. 82]. He admitted that he in fact created the crime. [D.E. 152, p. 82].
The function of law enforcement is the prevention of crime and the
apprehension of criminals. Manifestly, that function does not include the
manufacturing of crime. Criminal activity is such that stealth and strategy
are necessary weapons in the arsenal of the police officer. However, "A
different question is presented when the criminal design originates with
the officials of the Government, and they implant in the mind of an
innocent person the disposition to commit the alleged offense and induce
its commission in order that they may prosecute." Sorrels v. U.S., 287 U.S.
435 at 442. Then stealth and strategy become as objectionable police
methods as the coerced confession and the unlawful search. Congress
could not have intended that its statutes were to be enforced by tempting
innocent persons into violations. Sherman v. U.S., 356 U.S. 369, 372
(1958).
The government created the crime by proposing the idea for a stash house
sting. [D.E. 152, pp. 111-117; 82]. They then kept informing the defendants that
the men in the stash house were armed and could the defendant’s handle that fact
by having their own arms; inducing the defendants to bring weapons. [D.E. 152, p.
119; 8]. The government told the defendants that they would provide a truck for

15
them to do the robbery. The government actually offered to provide the
transportation to commit the crime that they created. [D.E. 152 p. 49]. The
government asked if the defendants would be bringing weapons in order to deal
with the threat. [D.E. 152 p. 50]. The whole notion that the pretend drug dealers
in the stash house would be strapped was a fact introduced by the government.
[D.E. 152 p. 77]. In short, the government created the crime. [D.E. 152 p. 82].
It is not the intent of the drug and gun laws to create violators to enrich
confidential informants and to give the ATF statistics to justify their existence.
True, the Appellant was trying to sell drugs. But he never had any desire, thought,
or intent to commit a drug robbery of a stash house. If there is even a small
amount of evidence in the record to support a theory of entrapment the instruction
should be given. Lively, supra. In this instance, the involvement of the
confidential informant enticing the Appellant, crosses the very low bar of having a
small amount of evidence mandating the trial court to give the entrapment
instruction. To refuse to do so is reversible error and a new trial should be granted
with the entrapment instruction being given to the jury.

16
II. The Court Erred by Allowing the Government to Present to the
Jury Evidence of Two Conspiracies When the Evidence Showed That There
was Only a Single Conspiracy for Multiple Objects.
In Count I of the indictment the defendant is charged with conspiracy to
commit a Hobbs Act Robbery. In Count II, the defendant is charged with
conspiracy with intent to distribute cocaine. The conspiracies encompass identical
dates; between June 22 and November 15, 2015. An examination of the facts of
this case reveals there is but one conspiracy with different criminal objects. The
facts make clear that this was a stash house sting where the government presented
the opportunity to do a drug robbery. The fact that the government believes that
the defendant intended to sell the proceeds from the robbery does not turn this
crime into two conspiracies.
As the Supreme Court stated in Braverman v. United States, 317 U.S. 49,
(1942),
[W]hen a single agreement to commit one or more substantive
crimes is evidenced by an overact, as the statute requires, the precise
nature and extent of the conspiracy must be determined by reference
to the agreement which embraces and defines its objects. Whether the
object of a single agreement is to commit one or many crimes, it is in
either case that agreement which constitutes the conspiracy which the
statute punishes. The one agreement cannot be taken to be several

17
agreements and hence several conspiracies because it envisages the
violation of several statutes rather than one.
Braverman at 53.
In conspiracy cases, proof of the illegal agreement or common purpose is not
always clear and frequently may depend on inferences from circumstantial
evidence. United States v. Becker, 569 F.2d 951 (5th Cir. 1978). The majority of
conspiracies will involve agreements to undertake a series of actions. To allow one
or two of these acts to serve as the basis for several separate prosecutions would
enable the construction of multiple conspiracy prosecutions from a single
agreement contrary to the principle in Braverman that under a single conspiracy
statute only one offense of conspiracy can occur from a single agreement. United
States v. Marable, 578 F.2d 151 (5th Cir. 1978).
The Marable court focused on five criteria to determine whether the
evidence presents a single agreement to do a crime or whether there are two
separate and distinct conspiracies. They are: (1) time, (2) persons acting as
coconspirators, (3) the statutory offenses charged in the indictments, (4) the overt
acts charged by the government or any other description of the offense charged
which indicates the nature and scope of the activity which the government sought

18
to punish in each case, and (5) places where the events alleged as part of the
conspiracy took place.
The first criteria are clear. The dates and times alleged in Counts I and II are
identical. The second criteria, regarding the persons involved in the conspiracy are
identical as well. The third criteria, the statutory offenses charged in the
indictment, are conspiracies relying on the same operative facts. The stash house
sting is the entire case. There are no other conspiracies separate from the sting.
The overt acts are to commit a robbery to get drugs. Therefore, the overt acts
though they name different objects are in fact the same conspiracy. The fifth
criteria, the place where the conspiracy took place were the same for counts II and
I. The discussions were with the undercover officer and the confidential
informant. The discussions were about a stash house sting to rob and steal drugs
that the government presented and all those conversations took place in the same
restaurants and parking lots. When the Marable criteria are applied, it is easily
seen that Counts 1 and II are really one conspiracy.
Therefore, the defendant is entitled to a new trial. In the case of Milanovich
v. United States, 365 U.S. 551 (1961), the Supreme court held that simple
resentencing was insufficient to cure the error of convicting and sentencing a

19
single defendant for robbery and receiving under the Federal Bank Robbery Act,
18 U.S.C.A. § 2113. Since robbery and receipt of stolen money were inconsistent
offenses, the Milanovich Court held that the jury must be instructed that it can
return a verdict of guilty on either offense, but not on both.
Similarly, in Heflin v. United States, 358 U.S. 415 (1959), petitioner alleged
that the Federal Bank Robbery Act did not authorize that he be separately
convicted and sentenced for robbing a bank in violation of 2113 (d) of the act, and
for receiving, possessing, concealing, storing, and disposing of the stolen money,
in violation of 2113(c) of the act. There, the Supreme Court found it inconsistent
and beyound the intent of the statute, for both robbing a bank and then being
charged separately for receiving the proceeds of the robbery.
Similarly, in the case sub judice the government making the allegations of
criminality broader and more extensive, prejudiced the defendant such that he was
unfairly prejudiced during the trial. The charges of conspiracy to commit a robbery
and conspiracy with intent to distribute are in essence the same crime. Robbing
drugs and then possessing the drugs you robbed is an extension of the same crime.
The jury should have had the option of choosing which one was the correct crime.
If the jury found that the defendant intended to steal the proceeds it is over

20
reaching to then charge him for receiving the drugs that he stole. In other words,
when someone commits a robbery, it is implied that you will possess the thing
robbed. This error cannot be corrected by resentencing; thus, a new trial is the
only remedy available.
III. The Court’s Failure to Grant the Petitioner’s Motion for Discovery
Allowed the Defendant to be Convicted in Violation of the Fifth Amendment
Due Process Clause.
On February 23, 2016 the Appellant filed a Joint Motion for Discovery
seeking from the government specific information to establish that the stash house
robbery that the Petitioner was arrested for was part of a government effort to
target minorities for these fake robberies. [D.E. 35]. National statistics published
by USA today showed that nationwide “that at least 91% of the people agents have
locked up using those stings were racial or ethnic minorities, USA Today found
after reviewing court files and prison records from across the United States that
nearly all were either black or Hispanic. [D.E. 35]. That rate is far higher than
among people arrested for big-city violent crimes, or for other federal robbery,
drug and gun offenses.” [D.E. 35 Ex. 1]. Based on these national statistics the
Petitioner sought discovery of the Southern District’s stash house robberies and the

21
racial makeup of the defendant’s that were targeted. [D.E. 35]. The motion sought
the amount of prior contact that the government had with these defendants to
establish whether there was some objective basis, other than race, that was used to
target the defendants. [D.E. 35]. Additionally, the statutory and regulatory
authority for the ATF and the FBI to pursue these phony stash house cases was
sought. [D.E. 35]. It is axiomatic that some type of guidance should have been
provided to the agencies that engaged in stash house stings. To that end, the
defendant sought all manuals or circulars, field notes, correspondence or any other
material which discuss “stings”, “reverse stings”, “phony stash house ripoffs” or
entrapment operations that would give protocol guidance to agents.
On March 28, 2016 the Petitioner filed a Reply to the Motion for Discovery.
[D.E. 62]. The Reply contained empirical evidence of the racial focus of stash
house sting investigations. The Public Defender’s Office for the Southern District
of Florida did a search for all the stash house stings in the ten years prior to the
defendant’s arrest and found 25 stash house sting cases. The 25 cases yielded 87
defendants. All of the defendants that were caught up in the stash house sting
scenario were either black or Hispanic. [D.E. 62].

22
On April 4, 2016 the Appellant filed an Amended Motion for Discovery
narrowing the previous request for information on the previous U.S. Attorneys
policies going back 10 years. [D.E. 68]. All the other requests remained the same.
A hearing was not had on the issue but the district court denied the motion orally
on April 28, 2016 [D.E. 85, 86].1
Federal Rule of Criminal Procedure 16 determines the parameters for
discovery requests. Rule 16 is intended to prescribe the minimum amount of
discovery to which the parties are entitled. It is not intended to limit the judge’s
discretion to order broader discovery in appropriate cases. Courts have taken this
seriously, holding that the rule does not limit their inherent power to order
discovery that goes beyond what the rule authorizes. Fed. R. Crim. P. 16 The
Advisory Committee Note to the 1975 Amendments.
A prosecutor's discretion is "subject to constitutional constraints." United
States v. Batchelder, 442 U.S. 114, 125, (1979). One of these constraints, imposed
by the equal protection component of the Due Process Clause of the Fifth
Amendment, Bolling v. Sharpe, 347 U.S. 497, 500 (1954), is that the decision

1

The docket entry does not list the denial however the undersigned remembers the court denying it on or about
that date as part of the summary denials that occurred during that hearing.

23
whether to prosecute may not be based on "an unjustifiable standard such as race,
religion, or other arbitrary classification," Oyler v. Boles, 368 U.S. 448 (1962). A
defendant may demonstrate that the administration of a criminal law is "directed so
exclusively against a particular class of persons . . . with a mind so unequal and
oppressive" that the system of prosecution amounts to "a practical denial" of equal
protection of the law. Yick Wo v. Hopkins, 118 U.S. 356, 373, (1886). In order to
dispel the presumption that a prosecutor has not violated equal protection, a
criminal defendant must present "clear evidence to the contrary." United States v.
Chemical Foundation, 272 U.S. 1, at 14-15 (1926).
Under the equal protection component of the Fifth Amendment's Due
Process Clause, the decision whether to prosecute may not be based on an
arbitrary classification such as race or religion. Oyler v. Boles, 368 U.S. 448, 456,
(1962). In order to prove a selective-prosecution claim, the claimant must
demonstrate that the prosecutorial policy had a discriminatory effect and was
motivated by a discriminatory purpose. Ibid. To establish a discriminatory effect in
a race case, the claimant must show that similarly situated individuals of a different
race were not prosecuted. Ah Sin v. Wittman, 198 U.S. 500 (1905); Batson v.
Kentucky, 476 U.S. 79, (1985). Although Ah Sin involved federal review of a state

24
conviction, a similar rule applies where the power of a federal court is invoked to
challenge an exercise of one of the core powers of the Executive Branch of the
Federal Government, the power to prosecute. Discovery imposes many of the costs
present when the Government must respond to a prima facie case of selective
prosecution. Assuming that discovery is available on an appropriate showing in aid
of a selective-prosecution claim, see Wade v. United States, 504 U.S. 181, (1992),
the justifications for a rigorous standard of proof for the elements of such a case
thus require a correspondingly rigorous standard for discovery in aid of it.
In the case sub judice the Appellant presented evidence to the court that
showed from 2001 to 2015 that every stash house case in the Southern District of
Florida involved minority defendants. In other words, one hundred percent of the
individuals that were subjected to stash house sting scenarios were minorities,
specifically black or Hispanic. [D.E. 62]. The data was compiled by the public
defender’s office for the Southern District of Florida of stash house cases from
2006 to March of 2016. [D.E. 65-1]. The extremely disturbing nature of the
evidence should have prompted the district court to grant more discovery to delve
into the policies and practices of the government that would allow such a racial
disparity to fester. Instead, the district court summarily denied the motion without

25
argument. In order to establish a selective-prosecution claim, the claimant must
demonstrate that the prosecutorial policy had a discriminatory effect. The
targeting of only minorities by government agents and confidential informants has
had the discriminatory effect of only minorities being prosecuted for stash house
stings. If there is no attempt to prosecute any non-minority for stash house stings
then that clearly shows a discriminatory practice as well. At a bare minimum it
should motivate the court to allow more discovery to get to the bottom of the
government’s discriminatory practices.
This court should reverse the conviction of the Petitioner, grant the motion
for more discovery and allow the Petitioner to have a full-blown hearing on the
government’s violation of the Fifth Amendment due process clause.
IV The Court Erred When it Sentenced The Petitioner Under 924(c) When
the Indictment Listed Multiple Enhancement Criteria While a General
Verdict of Guilty Did Not Specify Whether the Verdict Was Based on
Conspiracy to Commit a Hobbs Act Robbery Which Is Not a Crime of
Violence or Conspiracy to Commit A Drug Trafficking Offense.
The Petitioner was found guilty by a jury of possession of a firearm by a

26
convicted felon in violation of 18 U.S.C. § 924(c), which requires a longer prison
sentence whenever a defendant uses a firearm during a "crime of violence or drug
trafficking crime." 18 U.S.C. § 924(c)(1)(A). [D.E. 14]. The indictment indicated
that for purposes of the § 924(c) offense, the crime of violence was the conspiracy
to commit Hobbs Act robbery contained in Count III and the drug trafficking crime
which was the conspiracy to possess with intent to distribute cocaine contained in
Count I. [D.E. 14]. The statute under 18 U.S.C. § 924(c)(1)(A) gives more than one
definition of "crime of violence," including any felony "that by its nature, involves
a substantial risk that physical force against the person or property of another may
be used in the course of committing the offense." Id. § 924(c)(3)(B).
Due to the United States Supreme Court ruling in Johnson v. U.S., 135 S. Ct.
2551(2015), which ruled the residual clause of the ACCA unconstitutional because
the phrase "involves conduct that presents a serious potential risk of physical injury
to another" in 18 U.S.C. § 924(e)(2)(B)(ii) is unconstitutionally vague, the Eleventh
Circuit recently ruled that Johnson could invalidate the "very similar" § 924(c)(3)(B)
language. In re Pinder, 824 F.3d 977, 978, at *2 (11th Cir. 2016). This court at the
same time has recognized that the "law is unsettled" on this question and left it to
the district courts to decide in the first instance whether Johnson invalidates the

27
residual clause of § 924(c). Id. Pinder involved a § 924(c) sentence that was based
on the companion conviction of conspiracy to commit Hobbs Act robbery. In the
case sub judice one basis of the 924(c) conviction was a conspiracy to commit a
Hobbs Act robbery. Subsequently, the Eleventh Circuit went one step further. In
Brown v. United States, 942 F.3d 1069 (11th Cir. 2019), the court found “[n]either
an agreement to commit a crime nor a defendant's knowledge of the conspiratorial
goal necessitates the existence of a threat or attempt to use force. The same goes for
the final element—a defendant's voluntary participation that furthers the goal of
committing Hobbs Act robbery—because a defendant's voluntary participation may
manifest itself in any one of countless non-violent ways. So, like our sister Circuits,
we conclude that conspiracy to commit Hobbs Act robbery does not qualify as a
"crime of violence," as defined by § 924(c)(3)(A).” Id. at 1075.
Whether the discussion is under ACCA or 924(c), for both statutes the
question is decided "'categorically'—that is, by reference to the elements of the
offense, and not the actual facts of [the defendant's] conduct." United States v.
McGuire, 706 F.3d 1333, 1336 (11th Cir. 2013) (O'Connor, J.). As the Supreme
Court has explained, "[t]he vagueness of [§ 924(e)(2)(B)(ii)] rests in large part on its
operation under the categorical approach." Welch v. U.S., 136 S. Ct. 1257, 1262

28
(2016). This "approach required courts to assess the hypothetical risk posed by an
abstract generic version of the offense." Id. "It is one thing to apply an imprecise
'serious potential risk' standard to real-world facts; it is quite another to apply it to a
judge-imagined abstraction." Johnson v. United States, 135 S. Ct. 2551, 2558
(2015). Though § 924(c) is phrased a bit differently from § 924(e), the § 924(c)
language also requires courts to decide if the offense in question "naturally
involve[s] a person acting in disregard of the risk that physical force might be used
against another in committing an offense." Leocal v. Ashcroft, 543 U.S. 1, 10,
(2004).
In light of the aforementioned, the initial issue then becomes whether a
conspiracy to commit a Hobbs Act robbery can be considered a crime of violence
under 924(c) and thereby subject the Appellant to 924(c) sentencing? The movant's
conspiracy to commit a Hobbs Act robbery in violation of 18 U.S.C. § 1951(a),
cannot be a "crime of violence" under the elements clause of § 924(c). "To convict
on a Hobbs Act conspiracy, the government must show that (1) two or more people
agreed to commit a Hobbs Act robbery; (2) that the defendant knew of the
conspiratorial goal, and (3) that the defendant voluntarily participated in furthering
that goal." United States v. Ransfer, 749 F.3d 914, 929 (11th Cir. 2014). The

29
elements do not require that the defendant engage in an overt act in furtherance of
the conspiracy, United States v. Pistone, 177 F.3d 957, 959-60 (11th Cir. 1999), nor
that he was "capable of committing" the underlying offense. Ocasio v. United States,
136 S. Ct. 1423, 1432 (2016). Applying the categorical approach, then, a conviction
for conspiracy to commit a Hobbs Act robbery in violation of § 1951(a) does not
have "as an element the use, attempted use, or threatened use of physical force.
Without a Hobbs Act robbery as the basis for an enhancement under 924(c)
the only remaining basis for the enhancement would be the drug offense, namely the
conspiracy with the intent to distribute a controlled substance in violation of Count
I of the indictment. [D.E. 14]. However, though the drug offenses are not susceptible
to arguments under Johnson, the indictment charged the 924(c) Count as an either/or
proposition. As such when the jury returned their verdict and did not specify whether
the defendant was guilty for having a firearm while conspiring to do a robbery or for
conspiring to do a drug offense, the verdict may well have been based on an
impermissible predicate making the verdict invalid. The problem exists because the
jury may well have decided that the defendant was guilty of the 924 (c) for
conspiring to commit a Hobbs Act robbery. However, as argued above, a Hobbs
conspiracy is not a crime of violence under 924(c).

30
This is the exact situation that occurred in In re Gomez, 830 F.3d 1225 (11th
Cir. 2016). Defendant Gomez was charged by indictment with conspiracy to possess
with intent to distribute cocaine (Counts 1 and 2); conspiracy to commit Hobbs Act
robbery (Count 3); attempted Hobbs Act robbery (Count 4); carrying and possessing
a firearm "in relation to a crime of violence and a drug trafficking crime" (Count 5);
and being a felon-in-possession of a firearm (Count 6). The 924(c) Count referred
to drug trafficking crimes, conspiracy to commit Hobbs Act robbery and attempted
Hobbs Act robbery as possible predicates for the 924(c) charge.
The Gomez court then pointed to previous precedent that explained why using
multiple predicates to establish a 924(c) offense, when one of the offenses cannot
qualify as a crime of violence invalidates the 924(c) conviction.
In United States v. Schlei, 122 F.3d 944 (11th Cir. 1997), we held that "[a]
count in an indictment is duplicitous if it charges two or more 'separate
and distinct' offenses." Id. at 977 (quotation omitted). We noted that "[a]
duplicitous count poses three dangers: (1) A jury may convict a defendant
without unanimously agreeing on the same offense; (2) A defendant may
be prejudiced in a subsequent double jeopardy defense; and (3) A court
may have difficulty determining the admissibility of evidence." Id.
The Gomez court found that in fact that when you list multiple crimes as a
predicate for a 924(c) there is danger in the jury basing the conviction on the
conspiracy to commit a Hobbs Act robbery, which is not a crime of violence and

31
amounts to an illegal verdict. In the case at bar, it is certainly possible that the jury
found that the Appellant was conspiring to commit a robbery while in possession of
a firearm and that was the basis of them finding that he was guilty of Count III
without deciding that the defendant was in possession of a firearm while conspiring
to do a drug trafficking offense. The jury was not asked to specify and gave a general
verdict. Had the government only used the drug trafficking as a predicate offense
and not used a non-crime of violence then this court could be clear as to the basis of
the conviction on the 924(c) count. As the case currently stands, the jury could have
believed that the Appellant had a firearm during a point when he was conspiring to
do a robbery but not when he was conspiring to do a drug trafficking offense.
This would mean the jury would be required to find the Appellant not guilty of
the 924(c) offense. However, due to the duplicitous nature of the 924(c) count, the
jury never got the opportunity to specify what the 924(c) predicate was.
In Alleyne v. United States 133 S.Ct. 2151 (2013), the Supreme Court held
that when elements are used to increase a mandatory minimum sentence those
elements must be submitted to a jury and be proven beyond a reasonable doubt. Id
at 2158. When the government in the case at bar submitted multiple predicates to
the jury where one predicate is not a crime of violence it’s impossible to tell from

32
the verdict if the 924 (c) conviction was based on a predicate offense that is a crime
of violence. Clearly the general verdict in Count III violated Alleyene which requires
elements that enhance sentencing be submitted to the jury for the appropriate
standard of proof.
Neither the district court record nor the general verdict rendered by the jury
specifies whether the verdict relied upon the Hobbs Act conspiracy offense, the
drug trafficking offense, or both when Appellant was found guilty of the § 924(c)
offense. That means he may have been convicted of the § 924(c) offense, based
solely on a companion crime — conspiracy to commit Hobbs Act robbery — that
does not qualify as a crime of violence after Johnson. See In re Pinder, 824 F.3d
977 at 979 n. 1.
Gomez makes it clear that the verdict in this case regarding the § 924(c)
count was improperly duplicitous. A conspiracy to commit a Hobbs Act robbery
cannot qualify as a crime of violence under § 924(c)'s elements clause, leaving
only the void residual clause as support for the Appellant’s conviction. Since the
movant's § 924(c) conviction could only have qualified under the
unconstitutionally vague residual clause of § 924(c)(3)(B) it should be vacated in
the same manner as Gomez. The Court should vacate the verdict on Count III and

33
remand to the District Court for a determination if Count III should be summarily
dismissed.
V. The District Court Erred When It Denied The Appellant’s Motion
To Dismiss The Case For Outrageous Conduct
Prior to trial, on February 24th, 2016, the Petitioner filed a Motion to dismiss
the indictment for outrageous conduct. [D.E. 38]. The Motion alleged that the
stash house sting employed by the government was outrageous because the
government admittedly created the crime that the Petitioner was arrested for. [D.E.
152 p. 82].
This Court recognizes the defense of outrageous governmental conduct; a
defense interrelated with the sentencing manipulation theory. This defense focuses
on the tactics employed by law enforcement officials to obtain a conviction for
conduct beyond the defendant's predisposition. The question, however, is whether
the methods comport with the Fifth Amendment's guarantee of due process. United
States v. Sanchez, 138 F.3d 1410, 1413 (11th Cir. 1998).
In United States v. Russell, 411 U.S. 423, 93 S. Ct. 1637 (1973), the
Supreme Court recognized outrageous governmental conduct as a legal defense. To
succeed under this defense, the defendant must show that the challenged

34
governmental conduct violated " 'that fundamental fairness, shocking to the
universal sense of justice,' mandated by the due process clause of the fifth
amendment." Russell at 1643 (quoting Kinsella v. United States ex rel. Singleton,
361 U.S. 234, 246, (1960)).
In United States v. Roberts, 2014 U.S. Dist. LEXIS 162656 (C.D. Cal.
May 30, 2014), a district court in the 9th Circuit, granted a dismissal for the
government's outrageous conduct in a stash house robbery case. In Roberts, the
government, through the Bureau of Alcohol, Tobacco and Firearms concocted a
conspiracy to rob a stash house. A certain Agent Carr of ATF created a scenario
where 20 to 25 kilograms of cocaine were being guarded by two older men. Agent
Carr pretended to be a courier of his imagined stash where he would get a few
kilograms of cocaine after a shipment came in and transport the cocaine to Las
Vegas. Agent Carr indicated to unsuspecting defendants that he had financial
problems and wanted to assemble a crew to rob an imaginary stash house.
According to Agent Carr he would be present at the stash house and allow his
co-conspirators to enter the stash house and then provide for their escape in a
vehicle that he would provide. The government used paid confidential informants
to convince the defendants in the Roberts case to join into Agent Carr's scheme.

35
After an initial defendant was recruited, the government used that initial defendant
to bring in other defendants to assemble a crew to do the stash house robbery.
Agent Carr kept the location of the stash house known only to himself to prevent
any of the defendants from checking out the stash house prior to the alleged
robbery. Agent Carr then had the defendants go to a prearranged place where they
were arrested.
Outrageous government conduct occurs when the actions of law
enforcement officers or informants are so outrageous that due process principles
would absolutely bar the government from invoking judicial processes to obtain a
conviction. Id. at p. 3 quoting United States v. Russell, 411 U.S. 423, 431-32
(1973).
In evaluating whether the government's conduct is outrageous the Ninth
Circuit identified a number of factors to be considered to make that determination.
They are:
1)

The known criminal characteristics of the defendants

2)

Individualized suspicion of the defendants

3)

The government's role in creating the crime of conviction

36
4)

The government's encouragement of defendants to commit the offense

conduct
5)

The nature of the government's participation in the offense conduct

6)

The nature of the crime being pursued and necessity for the actions

and

taken in light of the nature of the criminal enterprise at issue.2 Roberts at p. 4
quoting United States v. Black, 750 F.3d 1053 (9th Circuit 2014) (Reinhardt, J.,
joined by Kozinski, C.J., dissenting from denial of rehearing en banc). In Roberts
the district court applied the Ninth Circuit criteria to the facts in the case before
them and dismissed the indictment because of government outrageous conduct.
The case at bar has striking similarities to the Ninth Circuit Roberts case. In
both instances government agents through a confidential informant concoct a
scheme whereby armed men are guarding a stash house. A government agent
pretends to be associated with the armed men guarding the stash house and
indicates because of his disgruntlement with not being paid that he wants the
defendants to stage a fake robbery and steal the drugs in the stash house and then

2

The six factors are initially stated in U.S. v. Black, 733 F.3d 294 (9th Cir 2013).

37
split the proceeds with him at a later time. These are the same characteristics that
were present in the Roberts case.
In applying the six-prong Roberts test many of the concerns that the district
court in California had with the set-up of the defendants existed in the case at bar.
The first Roberts criterion is the known criminal characteristics of the defendants.
At the time that Petitioner Holton became involved in the stash house robbery
scheme his identity was initially unknown. Only through additional investigation
of running the tag on the car that Holton arrived in did the agents become aware of
whom the defendant was. However, the stash house robbery scenario had already
been hatched prior to the defendant being identified. Therefore, the defendant’s
history was not part of the stash house scheme calculation and this criterion weighs
in favor of the Petitioner.
Characteristic two is the individualized suspicion of the defendants. The
defendants were initially talking to a confidential informant about a potential drug
deal. During those discussions nothing was ever mentioned about any robberies or
conducting any robberies. The government states in their factual recitation that at
some point codefendant Cannon mentioned that if they needed any muscle to let
him know that he had individuals that could assist them. [D.E. 153 p. 16]. This

38
generic description of muscle was not specific enough for any interpretation of that
to mean a stash house robbery. There were no discussions by the confidential
informant with Cannon in the initial conversations that took place in June 2015
about any stash house robberies. The confidential informant and the government
agent concocted the idea for a stash house robbery after it appeared to them that
there were no drugs available for any drug deal. [D.E. 152, p. 117, 124]. It is only
the government’s supposition that the defendants wanted to rob them that caused
them to concoct the phony stash house robbery. Thus, the idea for a stash house
robbery was the total creation of the government and its informant.
The third criterion is the government’s role in creating the crime of
conviction. This characteristic weighs heavily against the government. The entire
idea of the stash house robbery with the phony guards and the necessity of bringing
guns because the guards are strapped, was the creation of the government. This
story was created in order for the ATF to have guns brought to the scene so that
they can make an arrest for firearms. There was no mention of guns specifically
by any of the defendants until the government placed in operation the entire idea of
armed guards being at the phony stash house.

39
The fourth Robert’s criterion is the government’s encouragement of the
defendants to commit the offense conduct. This characteristic weighs heavily on
the government as well. The government concocted this story and encouraged the
defendants to participate by creating a huge amount of alleged illegal drugs that
would have incredible street value to entice economically challenged minority
individuals into participating in their fraudulent scheme. The government
encouraged the ease of doing the crime by providing the layout and the small
number of men that would be guarding the house. If the defendants didn’t have the
transportation to do the crime the government offered a vehicle to the defendants.
Clearly, the government encouraged the crime.
The fifth Robert’s criterion is the nature of the government’s participation in
the offense conduct. The government's participation in the offense conduct is
substantial; designed to lure defendants to bring guns to a scene to make combined
drug and gun violations of the law. The amounts of drugs are the creation of the
government in order to expose the defendants to extensive mandatory time. The
concoction of an armed stash house that would need firearms in order to get the
drugs was a concoction totally of the government in order to bring mandatory
firearms charges into play against the defendants.

40
The final Robert’s criterion is the nature of the crime being pursued and the
necessity for the actions taken in light of the nature of the criminal enterprise at
issue. The government gave up on any possibility of doing a drug deal, which was
the goal of the DEA who were initially investigating this case. The DEA initially
sent out a confidential informant to create feelers to see if anyone would sell drugs.
The DEA determined that there were no drugs and gave up on any arrests for the
production of drugs. At that point the case was abandoned. It was only because of
the greed of a confidential informant that the case was picked up by the ATF.
[D.E. 152, p. 117, 124]. Once the DEA abandoned the case, the confidential
informant concocts a stash house robbery in order to place defendants into the
government's conspiratorial net so that the ATF can get credit for gun arrests and
the government can prosecute defendants with enhanced penalties to further the
government's aim of statistical prosecutions. Justice Reinhardt in his dissent in
Black points out how the government takes advantage of poor minorities, tempting
them with the promise of large amounts of cash, in order to make prosecutions.
Black at pp. 1057-1058.

41
The case at bar is exactly that; an attempt by the government to create crime
and then prosecute the defendants for the crime that the government created. This
conduct is outrageous and should not be ratified by any court in this country.

REASONS FOR GRANTING THE WRIT

The District Court erred when it failed to grant the Appellant’s
Entrapment Jury Instruction when there was evidence of entrapment.

The

Court should remand this matter for a new trial where the entrapment instruction can
be given to the jury. The Court further erred when it denied the Appellant’s Motion
to Dismiss the Indictment for outrageous conduct and should have summarily
dismissed the indictment. The court’s failure to grant the Appellant’s Motion for
Discovery denied the Appellant the opportunity to further demonstrate that the
conduct of the government in their stash house sting cases violates the Fifth
Amendment of the Constitution. The court should remand the case to the District
Court and allow the defendant the discovery requested to prove the Fifth
Amendment violation. The 924 (c) count is duplicitous and is not based on a crime
of violence and should be summarily dismissed. Finally, Counts I and II are actually

42
the same conspiracy and to allow the trial to proceed on both counts of conspiracy
violates the constitution’s Double Jeopardy clause.

CONCLUSION
For the reasons stated here the Petition for a Writ of Certiorari should be
granted.

Respectfully Submitted
GREGORY A. SAMMS, ESQ.
Counsel for Petitioner
113 Almeria Avenue
Miami, FL 33137
(786) 953-5802 (tel)
(786) 513-3191 (fax)
Florida Bar No. 438863
BY: s/Gregory A. Samms
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing Petition
was served via U.S. Mail upon the Solicitor General of the United States, U.S.

43
Department of Justice, Washington D.C. 20530 and upon all counsel of record this
3rd day of May, 2021.
BY:s/Gregory A. Samms
GREGORY A. SAMMS,
ESQ.
Florida Bar No. 438863

44

CERTIFICATE OF COMPLIANCE
I Hereby Certify that that this Petition is in compliance with Rule 33 of the
Supreme Court Rules of Procedure and contains 8,893 words.

A

APPENDIX

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 PageHH
1 of 50
USCA11 Case: 16-16194 Date
(1 ofFiled:
2) 03/04/2021 Page: 1 of 1

Mar 4, 2021
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

MIAMI

ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

March 04, 2021
Clerk - Southern District of Florida
U.S. District Court
400 N MIAMI AVE
MIAMI, FL 33128-1810
Appeal Number: 16-16194-AA
Case Style: USA v. Lance Cannon
District Court Docket No: 1:15-cr-20923-UU-1
A copy of this letter, and the judgment form if noted above, but not a copy of the court's
decision, is also being forwarded to counsel and pro se parties. A copy of the court's decision
was previously forwarded to counsel and pro se parties on the date it was issued.
The enclosed copy of the judgment is hereby issued as mandate of the court. The court's opinion
was previously provided on the date of issuance.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Lois Tunstall
Phone #: (404) 335-6191
Enclosure(s)
MDT-1 Letter Issuing Mandate

A-1

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 2 of 50
USCA11 Case: 16-16194 Date
(2 ofFiled:
2) 03/04/2021 Page: 1 of 1

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
______________
No. 16-16194
______________
District Court Docket No.
1:15-cr-20923-UU-1
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
LANCE CANNON,
VINCENT HOLTON,
Defendants - Appellants.
__________________________________________
Appeals from the United States District Court for the
Southern District of Florida
__________________________________________
JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: February 03, 2021
For the Court: DAVID J. SMITH, Clerk of Court
By: Jeff R. Patch

ISSUED AS MANDATE 03/04/2021

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 3 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 1 of 47

[PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 16-16194
________________________
D.C. Docket No. 1:15-cr-20923-UU-1

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
LANCE CANNON,
VINCENT HOLTON,
Defendants-Appellants.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(February 3, 2021)
Before WILLIAM PRYOR, Chief Judge, HULL and MARCUS, Circuit Judges.
HULL, Circuit Judge:
After a jury trial, Lance Cannon and Vincent Holton appeal their convictions
for conspiracy to commit Hobbs Act robbery, conspiracy to possess with intent to

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 4 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 2 of 47

distribute cocaine, using and carrying a firearm during a crime of violence and a
drug trafficking crime, and possession of a firearm by a convicted felon. Cannon
and Holton, bringing guns with them, participated in a plan to rob a stash house
containing 18 kilograms of cocaine. As it turns out, one participant was an
undercover detective and the stash house was fake. On appeal, Cannon and Holton
raise multiple issues as to their convictions. After careful review, and with the
benefit of oral argument, we affirm.
I. FACTS
The trial evidence included witness testimony as well as audio, and in some
cases video, recordings of seven meetings as detailed below.
A.

June and July 2015 Meetings
The Drug Enforcement Administration (“DEA”) encountered Cannon and

Holton through its investigation of a target named Owen Nunez. The DEA opened
its investigation into Nunez based on information supplied by a confidential
informant (“CI”) named Miguel Gonzalez, who knew Nunez was a drug dealer.
Gonzalez had prior felony convictions, made a living as a CI, and worked for
multiple federal law enforcement agencies.
The DEA arranged for the CI to meet Nunez on June 22, 2015, to discuss
future drug transactions. On his own initiative, Nunez invited two other
individuals—Cannon and an unknown associate. During the meeting, Cannon

2

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 5 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 3 of 47

discussed with the CI Gonzalez the potential sale of 30 kilograms of cocaine at a
price of $28,000 per kilogram. Cannon offered the CI the opportunity to sample
the product.
On June 24, 2015, Nunez, Cannon, and the CI Gonzalez met again to discuss
the drug deal. This time, Cannon brought Holton with him. Cannon introduced
Holton as someone who could transport drugs for the CI if needed, stating,
“wherever you want it to go, he drives.” Cannon also told the CI: “Anything let
me tell you something you ever need . . . come, come to me.” Cannon indicated he
was talking about transportation. Cannon also said that the CI could come to him
if anybody ever “play[ed] with [him]”—that is, interfered with his drug dealings—
or was “fucking with [his] shit.” Cannon confirmed that the cocaine price was
$28,000 per kilogram.
On July 16, 2015, the CI met again with Nunez, Cannon, and Holton. The
CI asked Cannon and Holton for a one-kilogram sample of the cocaine prior to the
deal because the CI was going to be carrying so much money and wanted to “feel
. . . safe.” Holton offered to bring “everything to . . . the place,” but the CI
indicated he just wanted a one-kilogram sample. Later, Cannon and Holton had to
“do the math” on 30 kilograms of cocaine at $28,000 per kilogram, which came
out to $840,000. After Cannon and Holton left the meeting, the CI told Nunez
“these people are liars” and said he had a “bad feeling” about the transaction.

3

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 6 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 4 of 47

After the third meeting, the DEA stopped investigating Cannon and Holton
based on “red flags” indicating they were going to rob the CI. One red flag was
that Cannon and Holton did not seem to know how much money they were to
receive as a result of the drug deal.
B.

October 23 and 28, 2015 Meetings
Subsequently, the Bureau of Alcohol, Tobacco, Firearms and Explosives

(“ATF”) took over the investigation from the DEA. The CI informed the ATF that
Cannon was interested in committing a home invasion robbery for drugs. The CI
had placed a series of recorded phone calls to Cannon and prefaced some by noting
for law enforcement that the ensuing call would concern a cocaine robbery.
During the calls, however, the CI did not specifically mention a robbery to
Cannon. Instead, the CI referred to the need to talk soon about a potential job and
the possibility of working together.
After receiving the CI’s tip that Cannon was interested in committing a
robbery, the ATF arranged for a meeting on October 23, 2015, between Cannon,
the CI, and Kenneth Veloz—an undercover (“UC”) detective with the Miami-Dade
Police Department and ATF task force officer. The October 23 meeting took place
in a restaurant parking lot. The CI introduced the UC detective to Cannon as his
godson. The UC presented himself as a disgruntled drug courier who was not
being paid what he was owed. The UC proposed to Cannon stealing 10 to 20

4

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 7 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 5 of 47

kilograms of cocaine from his employers’ stash house. Cannon said he had a
“team” that could assist with the job.
The UC detective informed Cannon that at least one of the stash house
guards was “always strapped,” or armed, and warned Cannon that guns would be
involved. Cannon discussed with the CI the need to meet after the robbery to split
up the stolen cocaine. When the UC detective expressed concern that the stash
house guards would not “give up just like that,” Cannon promised the UC that the
guards were going to “lay the fuck down . . . [o]ne way or another.” The UC asked
Cannon if he had the “gear,” meaning the weapons and equipment necessary to do
the robbery, and Cannon told him not to worry.
On October 28, 2015, Cannon met again with the CI Gonzalez and the UC
detective. Holton also attended. The UC detective explained that his employers
were paying him only half of what he was owed. Holton then asked why he had
waited so long to rob them. Holton suggested that the robbery would look better
and go more smoothly if the UC was “tak[en] down too,” as if he was one of the
guards.
Holton asked whether the guard who would open the door for the UC
detective would be “strapped.” The UC responded that it depended, but that this
individual would not have a weapon in his hand. Holton said that if the individual
reached for a weapon, he and Cannon would have to protect each other’s lives, but

5

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 8 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 6 of 47

that he would prefer to “keep it clean” and “leave smelling like a rose.” Holton
also expressed that this was not a new situation for him and that he had more than
20 years’ experience.
Later, the UC detective indicated that Cannon and Holton should tell him if
the robbery was something they could not handle. Holton responded that it was a
“simple job” because the UC had “inside info.” Holton also said it was an “easy”
job but only if it was “worth it,” and he asked the UC what “the take” was. The
UC told him there would be 10 to 20 kilograms of high-quality, pure cocaine.
The parties then discussed certain logistics. Holton told the UC detective he
would need to give him a sign when it was time to rush the door. The UC
indicated he would put his glasses up. Holton said he would enter first and throw
the UC out of the way, with Cannon following behind. Cannon added that he
would aim his gun at the UC. The UC offered to provide Cannon and Holton a van
with a trap door in it. Holton suggested that he and Cannon arrive at the robbery
dressed as DEA agents and that this was “the best way to do it.” Holton later
asked the UC if he had any “clean tools”—guns not previously used in a crime.
The UC said he did not deal with guns, to which Holton responded, “[w]e got it.”
Holton indicated that after the robbery he wanted to quickly unload the
stolen cocaine and dump his gun. Cannon told the UC: “[T]he only thing my mind
[is] focused on, is making sure you go in smelling like a rose and you come out

6

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 9 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 7 of 47

[the same]—that’s my job.” Cannon said that he and Holton would “take care of
everything else.” Cannon and Holton added that if the UC at any point felt
threatened, they would “just go ahead and handle that problem.”
C.

November 5, 2015 Meeting
On November 5, 2015, Cannon, Holton, the CI, and the UC detective met

again and continued going over the logistics of the robbery. Holton indicated that
he and Cannon might want to use the van the UC had proposed. Holton discussed
with the UC the possibility that there might be more drugs in the stash house than
the UC planned to pick up from his employers. If that was the case, Holton said,
they were going to “take all of that shit,” but split everything fifty-fifty with the
UC. The UC again indicated that at least one guard would be armed. Cannon
responded they would take it as if everyone was “strapped.” The UC asked
Cannon and Holton if they were good with the plan and said it was “no sweat” if
they could not handle it. Holton laughed and said if things did not look good, they
would let the UC go about his business.
Holton then stated that he and Cannon would wait in a “blind spot” while the
UC went to the door of the stash house. Holton and Cannon would then quickly
follow behind. Holton said that they were going to tie up the guards—and the UC,
Cannon added—and take their guns and car keys. Cannon and Holton would do a
thorough search of the stash house to make sure they did not miss any cash or

7

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 10 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 8 of 47

drugs. Holton later stated, “sooner or later I’m [going to] retire from this shit.”
Holton also mentioned possibly bringing a third person, a driver, along to the
robbery.
D.

November 13, 2015 Robbery
On November 13, 2015, the day the robbery was to occur, Cannon, Holton

and an individual named Nathaniel Stubbs met with the CI a final time. The UC
detective was not present. The CI confirmed there would be 18 kilograms of
cocaine in the stash house. The CI offered to take the guns that Cannon and
Holton had brought with them and put them in his vehicle. But Cannon and
Holton declined the CI’s offer. Cannon, Holton, and Stubbs then followed the CI
in a pickup truck to a warehouse to retrieve the van and proceed to the stash house.
Upon their arrival at this second location, Cannon, Holton, and Stubbs were
arrested. Two firearms—an AK-47 style rifle and AK-47 style pistol—along with
ammunition and latex gloves were later recovered from Cannon and Holton’s
pickup truck.
II. PROCEDURAL HISTORY
A.

Indictment
A federal grand jury returned an indictment against Cannon and Holton,

charging them with: (1) conspiracy to commit Hobbs Act robbery, in violation of
18 U.S.C. § 1951(a) (Count 1); (2) conspiracy to possess with intent to distribute

8

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 11 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 9 of 47

five or more kilograms of cocaine, in violation of 21 U.S.C. §§ 841(a)(1) and 846
(Count 2); (3) knowingly using and carrying a firearm during and in relation to a
crime of violence, as set forth in Count 1, and during and in relation to a drug
trafficking crime, as set forth in Count 2, in violation of 18 U.S.C. §§ 924(c)(1)(A)
and 2 (Count 3); and (4) possession of a firearm by a convicted felon, in violation
of 18 U.S.C. § 922(g)(1) (Count 4 as to Cannon, Count 5 as to Holton).1
B.

Pretrial Motions
In 2016, Cannon and Holton jointly filed pretrial motions. First, they filed a

discovery motion. They contended that the ATF and Federal Bureau of
Investigation (“FBI”) targeted persons of color in phony stash house rip offs and
this resulted in the U.S. Attorney’s Office for the Southern District of Florida
“selectively prosecut[ing]” persons of color. Cannon and Holton sought, inter alia,
a list of fake stash house robbery cases brought by that particular U.S. Attorney’s
Office going back ten years, with each defendant’s race.
Second, Cannon and Holton filed a motion to dismiss the indictment based
on the government’s outrageous conduct in creating the fake robbery scheme, in
violation of the Fifth Amendment’s Due Process Clause.

1

Stubbs was also indicted but later pled guilty and is not a party to this appeal. Stubbs’s
participation in pretrial proceedings is omitted from the procedural history.
9

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 12 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 10 of 47

Third, Cannon and Holton filed a motion to dismiss the § 924(c) firearm
charge in Count 3 to the extent it was based on the predicate offense of conspiracy
to commit Hobbs Act robbery. They claimed that Hobbs Act robbery was not a
crime of violence under § 924(c)(3)(A)’s elements clause and based on Johnson v.
United States, 576 U.S. 591, 597–98, 606, 135 S. Ct. 2551, 2557–58, 2563 (2015),
which held that § 924(e)(2)(B)(ii)’s residual clause was unconstitutionally vague.
After a hearing and reviewing some of the recorded meetings, the magistrate
judge issued a written report and recommendation (the “Report”). The Report
recommended the denial of the motion to dismiss as to the creation of the robbery
scheme because Cannon and Holton had not established outrageous government
conduct. The magistrate judge found that the recorded meetings and “undisputed
facts regarding the subsequent events” showed that: (1) Cannon and Holton
exhibited a predisposition to engage in illegal drug transactions; (2) Cannon
showed a predisposition for violence when he told the CI to come to him if anyone
was “fucking with [his] shit”; (3) neither Cannon nor Holton were initially
recruited by the government; (4) Cannon and Holton were offered the opportunity
to withdraw from the stash house robbery but declined; and (5) Cannon and Holton
were prepared to participate in the robbery by bringing weapons and other
equipment to the predetermined meeting location.

10

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 13 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 11 of 47

To the extent the motion to dismiss was based on racial profiling, however,
the Report recommended that it be held in abeyance pending the district court’s
ruling on the related discovery motion. The magistrate judge also recommended
denying the motion to dismiss Count 3 because Hobbs Act robbery qualified as a
crime of violence under § 924(c)(3)(B)’s elements clause.
C.

District Court’s Orders
During a calendar call on April 27, 2018, the district court addressed pretrial

matters and denied the defendants’ discovery motion. Later, the district court
entered an order: (1) adopting the Report; (2) denying the motion to dismiss, to the
extent it was based on the government’s creating the robbery scheme; and (3)
denying the motion to dismiss the Hobbs Act robbery conspiracy predicate in
Count 3. In a separate order, the court denied the motion to dismiss, to the extent it
was based on the alleged targeting of minorities, and denied the amended motion
for discovery.2
D.

Trial and Verdict
At trial, the government’s four witnesses were: (1) Joseph Bryson, the DEA

agent who worked as the CI’s handler and arranged the meetings between the CI
and Nunez; (2) Kenneth Veloz, the UC detective who participated in the meetings

2

The amended discovery motion differed only in that Cannon and Holton narrowed
certain discovery requests.
11

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 14 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 12 of 47

about the stash house robbery; (3) Miguel Gonzalez, the CI; and (4) Adrian Halley,
a criminal investigator and ATF special agent, who collected the evidence from the
defendants’ truck at the time of arrest.
The government also introduced the audio and video recordings and written
transcripts of all seven in-person meetings. Bryson, Veloz, and Gonzalez testified
as to the meaning of certain phrases and terminology and described what was
taking place during the recordings.
DEA agent Bryson also testified how the investigation of Nunez had led to
Cannon and Holton, who were initially unknown to law enforcement. Bryson
explained that the DEA eventually stopped investigating Cannon and Holton
because it believed they were going to rob the CI Gonzalez.
During his testimony, UC detective Veloz repeatedly mentioned how he had
set out to “paint a violent situation” in describing the stash house robbery to
Cannon and Holton, to test whether they had “the desire and the will” to go
through with the plan. Veloz testified that: (1) he offered Cannon and Holton
several opportunities to opt out of the plan; (2) he did not offer to provide any
guns; and (3) the fact Cannon and Holton contemplated bringing a third person to
the robbery demonstrated that they, on their own, were actively planning the
robbery. On cross-examination, Veloz admitted that he created the stash house
robbery scenario, including the armed guards and the amount of cocaine involved,

12

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 15 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 13 of 47

but not the crime itself. To further show intent, the government introduced
Cannon’s 2002 drug conviction and Holton’s 1993 drug conviction.
Gonzalez testified about the meetings, his background as a CI, and how he
earned money in this role. On cross-examination, Gonzalez admitted that it was
his idea to present the idea of a stash house robbery to law enforcement because
Cannon previously told him that he could “do anything” the CI needed.
Halley, the ATF investigator, testified as to the gloves, firearms,
ammunition, and other items recovered from Cannon and Holton’s truck.
On the second day of trial, the district court learned that a juror—Tameka
Spicer—knew Holton’s wife. Spicer explained that she knew Holton’s wife
because Spicer did her hair “pretty often.” Spicer stated that they never discussed
Holton or the case and that her ability to be fair and impartial would not be
affected. After hearing the parties’ arguments, the court dismissed Spicer because
of her financial relationship to Holton’s wife.
After the government rested, Cannon and Holton moved for a judgment of
acquittal, which the district court denied. Cannon and Holton did not present any
evidence.
The district court also denied Cannon and Holton’s request for an
entrapment instruction. The court did give a “theory of defense instruction,” that:
(1) each defendant claimed he did not possess willful intent to commit a crime; (2)

13

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 16 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 14 of 47

willfulness or knowledge is an element of each crime; and (3) if a defendant did
not possess the requisite willful intent to commit a crime, or “you have a
reasonable doubt” about whether the defendant had the required intent and
willfulness to commit a crime, “you must find the Defendant not guilty.”
The jury found Cannon and Holton guilty on all counts. Later, the district
court denied Holton’s motion for a new trial.
E.

Sentencing
The district court sentenced both Cannon and Holton to: (1) 240 months’

imprisonment on the Hobbs Act robbery conspiracy conviction (Count 1) and drug
conspiracy conviction (Count 2), to run concurrently; (2) 120 months’
imprisonment on the felon in possession convictions (Count 4 for Cannon and
Count 5 for Holton), to run concurrently; and (3) a consecutive 60 months’
imprisonment on their § 924(c) firearm convictions (Count 3). This appeal
followed.
III. DISCOVERY MOTION
On appeal, Holton argues that the district court erred in denying his motion
for discovery as to his selective prosecution claim.3 Our consideration of Holton’s
discovery motion as to his selective prosecution claim is governed by well-settled

3

We review the denial of discovery on a selective prosecution claim for an abuse of
discretion. See United States v. Jordan, 635 F.3d 1181, 1185 (11th Cir. 2011).
14

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 17 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 15 of 47

and binding precedent in United States v. Armstrong, 517 U.S. 456, 116 S. Ct.
1480 (1996), and United States v. Jordan, 635 F.3d 1181 (11th Cir. 2011).
Federal prosecutors have “broad discretion” in enforcing criminal laws and a
“presumption of regularity” attaches to their prosecutorial decisions. Armstrong,
517 U.S. at 464, 116 S. Ct. at 1486 (quotation marks omitted). Federal prosecutors
have such latitude because they fall within a “special province” of the executive
branch and must assist in ensuring the faithful execution of the nation’s laws. See
id. (quotation marks omitted).
Nevertheless, prosecutorial discretion is subject to “constitutional
constraints.” Id. (quotation marks omitted). “One of these constraints, imposed by
the equal protection component of the Due Process Clause of the Fifth
Amendment, is that the decision whether to prosecute may not be based on an
unjustifiable standard such as race, religion, or other arbitrary classification.” Id.
(citations and quotation marks omitted).
Because of the presumption of regularity, a defendant who seeks to establish
a claim of selective prosecution in violation of the Constitution carries a
“demanding” burden. United States v. Smith, 231 F.3d 800, 807 (11th Cir. 2000)
(quoting Armstrong, 517 U.S. at 463, 116 S. Ct. at 1486); Jordan, 635 F.3d at
1188. “[T]o dispel the presumption that a prosecutor has not violated equal
protection, a criminal defendant must present clear evidence to the contrary.”

15

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 18 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 16 of 47

Smith, 231 F.3d at 807 (emphasis omitted) (quoting Armstrong, 517 U.S. at 465,
116 S. Ct. at 1486); Jordan, 635 F.3d at 1188. This requires a showing “that the
federal prosecutorial policy had a discriminatory effect and that it was motivated
by a discriminatory purpose.” Smith, 231 F.3d at 808 (quoting Armstrong, 517
U.S. at 465, 116 S. Ct. at 1487); Jordan, 635 F.3d at 1188.
Discovery on a selective prosecution claim is subject to “a correspondingly
rigorous standard.” Armstrong, 517 U.S. at 468, 116 S. Ct. at 1488. It requires a
defendant to produce “some evidence tending to show the existence of the essential
elements” of a selective prosecution claim—discriminatory effect and
discriminatory purpose. Jordan, 635 F.3d at 1188–89 (quoting Armstrong, 517
U.S. at 468, 116 S. Ct. at 1488) (concluding defendant was not entitled to
discovery on selective prosecution claim under Armstrong); United States v.
Quinn, 123 F.3d 1415, 1425–26 (11th Cir. 1997) (same). To establish
discriminatory purpose, a defendant must show the decisionmaker “selected or
reaffirmed a particular course of action at least in part ‘because of,’ not merely ‘in
spite of,’ its adverse effects upon an identifiable group.” Jordan, 635 F.3d at 1188
(quoting Wayte v. United States, 470 U.S. 598, 610, 105 S. Ct. 1524, 1532 (1985)).
To establish discriminatory effect in a race-based selective prosecution
claim, the defendant “must show that similarly situated individuals of a different
race were not prosecuted.” Smith, 231 F.3d at 808 (quoting Armstrong, 517 U.S.

16

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 19 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 17 of 47

at 465, 116 S. Ct. at 1487); Jordan, 635 F.3d at 1188. A “similarly situated”
person in the selective prosecution analysis is one who engaged in the same type of
conduct as the defendant “and against whom the evidence was as strong or stronger
than against the defendant.” Smith, 231 F.3d at 810–11 (affirming the denial of
motion to dismiss based on selective prosecution where defendants failed to
identify similarly situated comparators who engaged in the same type and quantity
of voting crimes); United States v. Brantley, 803 F.3d 1265, 1271–73 (11th Cir.
2015) (affirming the denial of motion to dismiss based on selective prosecution
where sole comparator’s conduct was materially different from defendant’s).
Statistical data reflecting the treatment of only one particular group cannot
satisfy the discriminatory effect prong because it fails to show that similarly
situated persons were treated differently. For example, in Jordan, this Court
affirmed the denial of discovery and an evidentiary hearing on a selective
prosecution claim where the defendant’s statistics showed that “approximately
93%” of Armed Career Criminal Act (“ACCA”) prosecutions in the Northern
District of Georgia were against African Americans, but failed to “include the
criminal histories of the other defendants.” 635 F.3d at 1189. This Court
explained that because the statistics did not touch on the criminal histories of other
defendants who were not prosecuted, they were “not probative of the ‘similarly
situated’ inquiry of the discriminatory effect test.” Id. We pointed out that

17

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 20 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 18 of 47

“Jordan did not show that a single arrestee who was not prosecuted under the
ACCA qualified for such prosecution, much less possessed a criminal history as
substantial as his own.” Id. Therefore, we concluded that Jordan failed to present
“‘some’ evidence tending to establish selective prosecution, much less facts
sufficient to create a reasonable doubt about the constitutionality of his
prosecution.” Id. (quotation marks omitted).
The same was true in Armstrong. There, the Supreme Court held that
defendants were not entitled to discovery as to selective prosecution where the
defendants provided an affidavit from the Federal Public Defender’s office, which
said that in all of the 24 relevant cases it had handled in a particular year, all
defendants had been black. Armstrong, 517 U.S. at 459, 116 S. Ct. at 1483. This
was not sufficient to allow for discovery because the evidence “failed to identify
individuals who were not black and could have been prosecuted for the offenses
for which respondents were charged, but were not so prosecuted.” Id. at 470, 116
S. Ct. at 1489 (emphasis added).
So too here. Nothing about the evidence that defendants have offered is
distinguishable from Armstrong or Jordan. Here, the defendants failed to proffer
evidence of discriminatory effect. See Armstrong, 517 U.S. at 470, 116 S. Ct. at
1489; Jordan, 635 F.3d at 1188–89. The only evidence that Cannon and Holton
proffered in support of the discovery motion was: (1) a USA Today article

18

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 21 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 19 of 47

reporting that “[a]t least 91% of the people agents have locked up” as a result of
stash house stings were racial or ethnic minorities and (2) data from the Federal
Public Defender’s Miami office showing that out of the 60 cases involving a stash
house that the office had handled since 2001, all 87 defendants were either black or
Hispanic in 25 cases that employed the same “disgruntled drug courier” scenario as
this case.
Under Armstrong and Jordan, this statistical evidence fails to establish
discriminatory effect because it does not demonstrate that similarly situated
defendants of other races could have been prosecuted for the same offenses but
were not. See Armstrong, 517 U.S. at 470, 116 S. Ct. at 1489; Jordan, 635 F.3d at
1188–89. The USA Today article and statistics from the Federal Public Defender’s
office in Miami say nothing about whether the government declined to prosecute
similarly situated non-minority individuals in reverse stash house stings.
Furthermore, the statistics from the Federal Public Defender’s Miami office cover
25 of the 60 stash house cases that office handled within that district. Even if those
25 cases represent every reverse stash house sting out of the 60 cases, these
statistics do not include similar cases in the district not handled by the Federal
Public Defender’s Miami office—they represent only a “fraction of the total
number of prosecutions,” as the government puts it. And even if they did represent
every similar case in the district, the statistics would still tell us nothing about

19

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 22 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 20 of 47

similarly situated non-minority individuals. Simply put, telling the court how
many minorities have been prosecuted does nothing to prove how many nonminorities have not been. And that similarly situated showing is plainly required
under Supreme Court precedent and our own precedent to proceed to discovery.
See Armstrong, 517 U.S. at 468, 116 S. Ct. at 1488; Jordan, 635 F.3d at 1188.
Because defendants failed to establish discriminatory effect, we need not
address discriminatory purpose. In any event, there is no evidence of
discriminatory purpose. Law enforcement did not initially target Cannon and
Holton. Instead, they came to law enforcement’s attention through the DEA’s
investigation of Owen Nunez, a drug dealer who brought Cannon to a meeting, and
then Cannon brought Holton to a later meeting. The ATF continued the
investigation only after Cannon had offered to assist the CI in the future if he
needed.
For all these reasons, the district court did not abuse its discretion in denying
the defendants’ motion for discovery on the claim of selective prosecution.
Before concluding this issue, we recognize that Holton’s discovery motion
sought information not only from the U.S. Attorney’s Office for the Southern
District of Florida about the prosecution of racial minorities in fake stash house
cases, but also from the ATF and FBI about how defendants were selected or

20

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 23 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 21 of 47

targeted for investigation in such cases. Holton’s motion, however, referred to
only “selective prosecution” and never “selective enforcement.”
Similarly, on appeal, Holton used only the term “selective prosecution” in
his opening and reply briefs. Holton used the term “selective enforcement” for the
first time in this Court in his Rule 28(j) letter. Even assuming arguendo that
Holton adequately raised the issue in the district court, he abandoned it on appeal.
See United States v. Levy, 416 F.3d 1273, 1275–76 (11th Cir. 2005) (providing
that issues not raised in opening brief are abandoned); United States v. Jernigan,
341 F.3d 1273, 1283 n.8 (11th Cir. 2003) (stating that “a party seeking to raise a
claim or issue on appeal must plainly and prominently so indicate,” even if issue
was preserved at trial).
IV. MULTIPLICITOUS INDICTMENT
Holton argues, for the first time on appeal, that the indictment was
multiplicitous. 4 Holton contends he was improperly charged with two
conspiracies—one to commit Hobbs Act robbery in Count 1 and another to possess
with intent to distribute cocaine in Count 2—when only a single conspiracy
occurred.

4

We review this issue for plain error, which requires (1) an error, (2) that is plain, and (3)
that affects substantial rights. See United States v. Gonzalez, 834 F.3d 1206, 1217–18 (11th Cir.
2016). If these conditions are meet, we may exercise our discretion to correct the error, but only
if the error “seriously affect[ed] the fairness, integrity, or public reputation of judicial
proceedings.” Id. at 1218 (quotation marks omitted).
21

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 24 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 22 of 47

The Double Jeopardy Clause prohibits multiple punishments for the same
offense. United States v. Bobb, 577 F.3d 1366, 1371 (11th Cir. 2009). A
multiplicitous indictment, which “charges a single offense in more than one
count,” violates double jeopardy principles “because it gives the jury numerous
opportunities to convict the defendant for the same offense.” United States v.
Williams, 527 F.3d 1235, 1241 (11th Cir. 2008).
“Where the same conduct violates two statutory provisions, the first step in
the double jeopardy analysis is to determine whether the legislature . . . intended
that each violation be a separate offense.” United States v. Davis, 854 F.3d 1276,
1286 (11th Cir. 2017) (quotation marks omitted). If congressional intent is
unclear, we apply the Supreme Court’s test set forth in Blockburger v. United
States, 284 U.S. 299, 52 S. Ct. 180 (1932). Davis, 854 F.3d at 1286. Under
Blockburger, “the test to be applied to determine whether there are two offenses or
only one, is whether each provision requires proof of a fact which the other does
not.” Blockburger, 284 U.S. at 304, 52 S. Ct. at 182. In applying the Blockburger
test, we examine only the elements of each offense, except in “a few specific
circumstances” that are not present here. See United States v. Hassoun, 476 F.3d
1181, 1186–87 (11th Cir. 2007); see also Williams, 527 F.3d at 1240.
Here, Holton failed to show that the indictment was multiplicitous. Neither
Holton nor the government identifies anything in the conspiracy statutes or their

22

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 25 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 23 of 47

legislative histories that speaks to Congress’s intent to authorize separate and
cumulative punishments. We therefore compare the elements of the two offenses.
See Davis, 854 F.3d at 1286.
Doing so, we easily conclude the two conspiracy offenses have separate
elements. Conspiracy to commit Hobbs Act robbery requires proof that: “(1) two
or more persons agreed to commit a robbery encompassed within the Hobbs Act,”
which prohibits robberies that affect interstate commerce; (2) “the defendant knew
of the conspiratorial goal; and (3) the defendant voluntarily participated in helping
to accomplish the goal.” United States v. Hano, 922 F.3d 1272, 1294 (11th Cir.),
cert. denied, ___ U.S. ___, 140 S. Ct. 488 (2019). In contrast, conspiracy to
possess with intent to distribute cocaine requires proof that: (1) “an illegal
agreement existed to possess with the intent to distribute cocaine;” (2) the
defendant knew of the agreement; and (3) the defendant knowingly and voluntarily
joined the agreement. United States v. Charles, 313 F.3d 1278, 1284 (11th Cir.
2002) (emphasis omitted). Because each conspiracy requires “proof of a fact
which the other does not”—namely, a distinct type of agreement—the Blockburger
test is satisfied, and the indictment is not multiplicitous. See Blockburger, 284
U.S. at 304, 52 S. Ct. at 182. Holton has shown no error, much less plain error.
Holton argues that allowing multiple conspiracy prosecutions to stem from a
single agreement is contrary to Braverman v. United States, 317 U.S. 49, 63 S. Ct.

23

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 26 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 24 of 47

99 (1942), but that case is materially different. In Braverman, the Supreme Court
held that an agreement to violate multiple internal revenue laws was a single
conspiracy, “however diverse its objects,” because it violated only one conspiracy
statute. Braverman, 317 U.S. at 54, 63 S. Ct. at 102. Here, in contrast, defendants
were charged with two conspiracies, under separate statutory provisions, which
clearly “specify different ends as the proscribed object of the conspiracy.” See
Albernaz v. United States, 450 U.S. 333, 339, 101 S. Ct. 1137, 1142 (1981)
(concluding that conspiracy to import and conspiracy to distribute marijuana in
violation of separate statutory provisions satisfied the Blockburger test).
We also reject Holton’s argument that we should apply the “same evidence”
test from United States v. Marable, 578 F.2d 151 (5th Cir. 1978). In Marable, the
former Fifth Circuit concluded that a defendant’s conviction for conspiracy to
distribute cocaine violated double jeopardy because it was based on the same
evidence as his prior conviction for conspiracy to distribute heroin, and that the
two conspiracies reflected only “a single agreement to deal broadly in drugs.” 578
F.2d at 154–56. Marable, however, was abrogated by the Fifth Circuit’s en banc
decision in United States v. Rodriguez, which recognized that Blockburger places
the focus on the “elements of the offense charged, not on the evidence adduced at

24

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 27 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 25 of 47

trial.” 612 F.2d 906, 919 & n.35 (5th Cir. 1980) (en banc),5 aff’d sub nom.
Albernaz v. United States, 450 U.S. 333, 101 S. Ct. 1137 (1981), overruled on
other grounds by United States v. Michelena-Orovio, 719 F.2d 738, 756–57 (5th
Cir. 1983) (en banc); see also Hassoun, 476 F.3d at 1187 n.7 (recognizing
abrogation).
To the extent Marable retains any precedential value in this Circuit, it is
limited to, “at most, cases in which two counts are charged under the same
conspiracy statute.” Hassoun, 476 F.3d at 1187 n.7; see also United States v.
Anderson, 872 F.2d 1508, 1520 (11th Cir. 1989) (indicating that Marable does not
apply “where the same agreement violates two separate statutes, each of which
proscribes a discrete conspiracy”). Marable is wholly inapplicable because this
case, even with its common facts, still involves two separate conspiracies, one
under 18 U.S.C. § 1951(a) and the other under 21 U.S.C. §§ 841(a)(1) and 846.
V. OUTRAGEOUS CONDUCT
Cannon and Holton argue that the creation of the stash house robbery
scheme constituted outrageous government conduct in violation of the Fifth

5

This Court adopted as binding precedent all Fifth Circuit decisions prior to October 1,
1981. Bonner v. City of Prichard, 661 F.2d 1206, 1209 (11th Cir. 1981) (en banc).
25

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 28 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 26 of 47

Amendment’s Due Process Clause, and that the district court erred in denying their
motion to dismiss the indictment on this basis.6
Outrageous government conduct is a potential defense that “focuses on the
tactics employed by law enforcement officials to obtain a conviction for conduct
beyond the defendant’s predisposition.” United States v. Sanchez, 138 F.3d 1410,
1413 (11th Cir. 1998). It is based on the Supreme Court’s recognition of the
possibility that law enforcement’s tactics may be “so outrageous that due process
principles would absolutely bar the government from invoking judicial processes
to obtain a conviction.” United States v. Russell, 411 U.S. 423, 431–32, 93 S. Ct.
1637, 1643 (1973). To establish outrageous government conduct, a defendant
must show that law enforcement’s techniques violate “fundamental fairness,
shocking to the universal sense of justice, mandated by the Due Process Clause of
the Fifth Amendment.” See id. at 432, 93 S. Ct. at 1643 (quotation marks omitted).
Our Circuit has caselaw analyzing outrageous government conduct claims,
although this defense has never succeeded here or in the Supreme Court. See
Sanchez, 138 F.3d at 1413 (stating that “[t]his Court recognizes the defense of
outrageous governmental conduct,” but noting the standard has never been met in

6

We review de novo the denial of a motion to dismiss based on outrageous government
conduct. United States v. Jayyousi, 657 F.3d 1085, 1111 (11th Cir. 2011). We reject the
government’s claim that Cannon waived this argument by failing to object to the magistrate
judge’s Report. Because the Report did not fully inform Cannon of the consequences on appeal
of failing to object, we review Cannon’s claims de novo. See 11th Cir. R. 3-1.
26

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 29 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 27 of 47

this Court or in the Supreme Court); see also United States v. Ciszkowski, 492
F.3d 1264, 1270 (11th Cir. 2007) (“[W]e do recognize the outrageous government
conduct defense.”). However, the concurring opinion in Ciszkowski, and this
Court’s later opinion in United States v. Jayyousi, 657 F.3d 1085 (11th Cir. 2011),
doubted that the defense is “recognized” in this Court. Both state that because this
Court has never actually reversed a conviction based on outrageous government
conduct, any discussion of it is merely dicta. See Ciszkowski, 492 F.3d at 1272
(Carnes, J., concurring) (stating that this Court’s discussion of the defense is
contained only in “speculative dicta”); Jayyousi, 657 F.3d at 1111 (“We have
never applied the outrageous government conduct defense and have discussed it
only in dicta.”).
We need not decide whether to adopt this defense because Cannon and
Holton have not shown the government’s conduct was outrageous in any event.
Merely presenting defendants with a non-unique opportunity to commit a crime, of
which they are more than willing to take advantage, does not amount to outrageous
government conduct. See United States v. Savage, 701 F.2d 867, 869–70 (11th
Cir. 1983). This Court has repeatedly rejected challenges to reverse sting
operations, see Sanchez, 138 F.3d at 1413, and noted that they are “recognized and
useful methods of law enforcement investigation,” Ciszkowski, 492 F.3d at 1271.

27

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 30 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 28 of 47

Taken in its entirety, the government’s conduct was not outrageous and did
not violate due process. See United States v. Haimowitz, 725 F.2d 1561, 1577
(11th Cir. 1984) (providing that we examine outrageous government conduct under
the totality of the circumstances, and no single factor controls). Although the
government presented Cannon and Holton with the opportunity to rob a stash
house, it did not provide the entire means of executing the plan, and defendants
offered much more than their “meager assistance.” See United States v. Puett, 735
F.2d 1331, 1335 (11th Cir. 1984) (stating that government conduct may be
outrageous “when the government instigates the criminal activity, provides the
entire means for its execution, and runs the entire operation with only meager
assistance from the defendant”). The government did not initially recruit Cannon
or Holton, and it was Cannon who offered to assist the CI in the future if the CI
needed. Later, it was Cannon who offered the UC detective a “team” that could
assist with the robbery. Notably, Cannon brought Holton into the scheme.
Cannon and Holton also declined multiple opportunities to withdraw from
the robbery, were undeterred by the assured presence of armed guards at the stash
house, and were willing to provide the know-how and their own guns necessary to
carry out the robbery. During the recorded meetings, Holton and Cannon readily
filled in the details of the plan, informing the UC detective what they would do
before, during, and after the robbery. Under the totality of the circumstances,

28

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 31 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 29 of 47

Holton and Cannon have not shown the government’s conduct was outrageous or
fundamentally unfair or “shocking to the universal sense of justice.” See Russell,
411 U.S. at 432, 93 S. Ct. at 1643 (quotation marks omitted).
To be sure, the government’s CI suggested the robbery, and the UC
detective invented the idea of a stash house with 18 kilograms of cocaine and
armed guards and offered Cannon and Holton a van to use. But this level of
involvement does not go beyond merely presenting Cannon and Holton with the
opportunity to commit a crime, which does not amount to outrageous conduct. See
Savage, 701 F.2d at 869–70.
Cannon and Holton also argue the CI’s robbery scheme served no purpose
other than to “create crime,” given that no drugs were taken off the streets.7 This
argument ignores that the government presented Cannon and Holton only with an
opportunity of which they “were more than willing to take advantage.” See id. at
869. Under the particular circumstances here, including the defendants’ active and
willing participation in the scheme, we have no reason to depart from our
precedent recognizing reverse stash house stings as lawful methods of

7

While Holton argues that we should apply the six factors articulated by the Ninth Circuit
in United States v. Black, 733 F.3d 294, 303 (9th Cir. 2013), the test in this Circuit examines the
totality of the circumstances, as discussed and applied above. See Haimowitz, 725 F.2d at 1577.
The two California district court decisions the defendants rely on were reversed by the Ninth
Circuit. See United States v. Flores, 650 F. App’x 362, 362 (9th Cir. 2016); United States v.
Dunlap, 593 F. App’x 619, 620 (9th Cir. 2014).

29

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 32 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 30 of 47

investigation. See Ciszkowski, 492 F.3d at 1271; Sanchez, 138 F.3d at 1413.8
VI. ENTRAPMENT INSTRUCTION
Cannon and Holton challenge the district court’s refusal to give an
entrapment instruction. 9
A.

Entrapment Defense
Entrapment is an affirmative defense. United States v. Orisnord, 483 F.3d

1169, 1178 (11th Cir. 2007). Entrapment has two elements: “(1) government
inducement of the crime and (2) the defendant’s lack of predisposition to commit
the crime before the inducement.” Id.
A defendant has the initial burden of production to show the government
induced the defendant to commit the crime. Id. To establish inducement, “a
defendant must prove more than that the government first solicited him or merely
provided the opportunity for the crime.” United States v. West, 898 F.2d 1493,
1502 (11th Cir. 1990). Instead, the defendant must show “an element of
persuasion or mild coercion,” in other words, “opportunity plus something like
excessive pressure or manipulation of a non-criminal motive.” See United States
v. Brown, 43 F.3d 618, 623 (11th Cir. 1995). If the defendant produces sufficient
8

Cannon also argues, for the first time on appeal, that the district court should have
dismissed the indictment pursuant to its inherent authority. There is no basis to conclude that the
district court erred, much less plainly erred, in refusing to dismiss the indictment on this ground.
9

We review de novo a district court’s refusal to give an entrapment instruction. See
United States v. Dixon, 901 F.3d 1322, 1346–47 (11th Cir. 2018).
30

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 33 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 31 of 47

evidence to create jury issues as to inducement, the burden shifts to the
government to prove beyond a reasonable doubt that the defendant was
predisposed to commit the crime. Orisnord, 483 F.3d at 1178.
The district court did not err in denying the defendants’ request for an
entrapment instruction. Cannon and Holton failed to present sufficient evidence to
create a jury issue on inducement. As explained above, Cannon and Holton
without hesitation agreed to rob the stash house and declined multiple
opportunities to withdraw. Cannon and Holton planned and informed the UC
detective what would happen at each stage of the robbery—from waiting in a blind
spot as the UC went to the door, to tying up the guards and searching the house, to
Holton dumping his gun when it was all over. On their own, they involved a third
person, Nathaniel Stubbs, and never expressed any doubt. There is also no
evidence that the government persuaded or coerced Cannon and Holton into
committing any of the charged crimes. See Brown, 43 F.3d at 623.
Holton stresses that the government created the robbery scheme, offered to
provide transportation, and induced him and Cannon to bring weapons by having
the UC detective repeatedly state the guards would be armed. The mere creation of
the opportunity to rob the stash house does not show inducement. See West, 898
F.2d at 1502. The facts that Cannon and Holton were offered a van and told armed
guards would be at the stash house do not evince “an element of persuasion or mild

31

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 34 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 32 of 47

coercion.” See Brown, 43 F.3d at 623. If anything, that Cannon and Holton were
not dissuaded by the armed guards’ presence shows they were ready and willing to
commit the robbery regardless of the danger. Indeed, and in any event, the
government proved beyond a reasonable doubt the defendants’ predisposition to
commit the crime. See Orisnord, 483 F.3d at 1178.
The government points out that Holton and Cannon had the ability to present
an effective defense. The district court gave a theory of defense instruction, which
emphasized the mental state required for a conviction. The court told the jury to
find Cannon and Holton guilty only if it concluded that they had the requisite
intent or willfulness to commit the crimes charged and the government merely
presented them “with the opportunity to do so.” Even without an entrapment
instruction, the jury was able to consider whether Cannon and Holton acted with
the requisite willful intent to commit a crime.
B.

Sentencing Entrapment
For the first time on appeal, Cannon raises a sentencing entrapment claim.10

He argues the government entrapped him into agreeing to rob a greater quantity of
drugs than he was predisposed to purchase and that the district court should have

10

Because at trial Cannon did not request an instruction on sentencing entrapment, we
review the issue for plain error. See United States v. Starke, 62 F.3d 1374, 1380 (11th Cir.
1995).
32

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 35 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 33 of 47

given an instruction on sentencing entrapment.
“Sentencing entrapment is the claim that a defendant, although predisposed
to commit a minor or lesser offense, is entrapped into committing a greater offense
subject to greater punishment.” Sanchez, 138 F.3d at 1414 (quotation marks
omitted). This Court previously has rejected the viability of sentencing entrapment
as a defense. Ciszkowski, 492 F.3d at 1270. Therefore, the district court did not
err, much less plainly err, in not giving a sentencing entrapment instruction.
Cannon argues that in light of the Supreme Court’s decision in Apprendi v.
New Jersey, 530 U.S. 466, 120 S. Ct. 2348 (2000), our precedent rejecting the
sentencing entrapment defense should be overruled. We disagree. Apprendi has
no application to a sentencing entrapment defense.
Even assuming the defense was somehow available, it would be examined
“according to those rules applicable to a traditional entrapment defense,” which
requires the defendant to carry the initial burden of establishing inducement.
United States v. Ryan, 289 F.3d 1339, 1343 (11th Cir. 2002). As set forth above,
Cannon failed to present sufficient evidence to create a jury issue as to inducement.
VII. JUROR DISMISSAL
Cannon argues that the district court erred in dismissing Tameka Spicer from
the jury because: (1) Spicer said she could be fair and impartial; and (2) no

33

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 36 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 34 of 47

adequate record was made concerning her financial relationship to Holton’s wife.11
A district court has the authority to replace with alternates “any jurors who
are unable to perform or who are disqualified from performing their duties.” Fed.
R. Crim. P. 24(c)(1). It is within the district court’s sound discretion to remove
and replace a juror “whenever facts are presented which convince the trial judge
that the juror’s ability to perform his duty as a juror is impaired.” United States v.
Crabtree, 878 F.3d 1274, 1288 (11th Cir. 2018) (quoting United States v. Fajardo,
787 F.2d 1523, 1525 (11th Cir. 1986)).
“We will not disturb a district court’s decision to remove a juror before
deliberations absent a showing of bias or prejudice, which includes removal
without factual support, or for a legally irrelevant reason.” United States v.
Godwin, 765 F.3d 1306, 1316 (11th Cir. 2014) (quotation marks omitted). The
district court need provide only “a reasonable cause” for its decision to replace a
juror. Crabtree, 878 F.3d at 1288 (quoting Fajardo, 787 F.2d at 1526). When a
juror demonstrates actual bias, or if bias is implied due to a special relationship
with a party, removal is required. United States v. Rhodes, 177 F.3d 963, 965
(11th Cir. 1999).

11

We review a district court’s decision to dismiss a juror for an abuse of discretion.
United States v. Crabtree, 878 F.3d 1274, 1288 (11th Cir. 2018).
34

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 37 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 35 of 47

The district court did not abuse its discretion in dismissing juror Spicer who
knew Holton’s wife and styled her hair on a regular basis. It was well within the
district court’s discretion to conclude that Spicer’s relationship to Holton’s wife
was financial in nature and “too close,” and that this created a greater likelihood of
her being “influenced by her relationship to . . . Holton’s wife.” That Spicer told
the district court the relationship would not impact her ability to perform her duties
does not compel a different conclusion. Despite her statement of no actual bias,
the court was still required to determine if there would be implied bias due to the
relationship. See Rhodes, 177 F.3d at 965.
Because the court’s decision to dismiss Spicer was supported by a factual
basis for implied bias and a legally relevant reason, we will not disturb it. See
Godwin, 765 F.3d at 1316. Even if the court had somehow violated Rule 24(c),
which it did not, Cannon makes no attempt to show that Spicer’s replacement prior
to deliberations resulted in prejudice requiring reversal. See United States v.
Puche, 350 F.3d 1137, 1152–53 (11th Cir. 2003) (stating that reversal is required
only when there is a “reasonable possibility” that the Rule 24(c) violation resulted
in actual prejudice to the defendants) (quotation marks omitted).
We also reject Cannon’s argument that the district court failed to develop the
record regarding Spicer’s financial ties to Holton’s wife. After putting Spicer
under oath and establishing the existence of her relationship to Holton’s wife, the

35

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 38 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 36 of 47

district court said it was willing to ask additional questions of Spicer and invited
both sides to present authorities in support of their positions. Neither Cannon nor
Holton requested further questioning or offered caselaw indicating that Spicer’s
dismissal would be improper. To the contrary, Cannon indicated it was “in all
likelihood” within the court’s discretion to dismiss Spicer. Spicer’s dismissal was
not an abuse of discretion.
VIII. COURT REPORTER ACT
Cannon argues that his right to have all proceedings in open court
transcribed was violated. Cannon requests “a new trial or reconstruction of the
Records” because he has new counsel on appeal. Cannon cites to the Court
Reporter Act, 28 U.S.C. § 753, but fails to explain, what, if anything, was omitted
from the record. The government interprets Cannon’s sparse argument as
challenging the court reporter’s failure to transcribe the recorded conversations that
were admitted into evidence.
The Court Reporter Act requires “all proceedings in criminal cases had in
open court” to be “recorded verbatim by shorthand, mechanical means, electronic
sound recording, or any other method, subject to regulations promulgated by the
Judicial Conference and subject to the discretion and approval of the judge.” 28
U.S.C. § 753(b)(1). We review de novo questions of statutory interpretation. See
United States v. Witek, 61 F.3d 819, 821 (11th Cir. 1995).

36

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 39 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 37 of 47

At trial, both the recordings and the corresponding written transcripts of
them were admitted into evidence and are part of the record on appeal. The record
is complete. The transcripts were admitted as exhibits of the actual conversations
on the recordings and no one, then or now, contested their accuracy. Under these
circumstances, nothing in the Court Reporter Act requires that the audio or video
recordings, which “are not testimony but are themselves admitted into evidence as
exhibits,” also be transcribed by the court reporter. See United States v. MoralesMadera, 352 F.3d 1, 7 (1st Cir. 2003) (stating, in case involving wiretapped
recordings, that “[t]he Court Reporter Act is not usually understood to require the
reporter to record separately the contents of exhibits admitted in evidence”); see
also United States v. Craig, 573 F.2d 455, 480 (7th Cir. 1977) (concluding there
was “substantial compliance” with the Court Reporter Act—even though court
reporter did not transcribe tape recordings that were played to the jury—because
the recordings were part of the record on appeal, the court had before it “the most
accurate record of what was heard by the jury,” and appellate review was in no
way impeded).
IX. FIREARM CONVICTIONS
Cannon and Holton challenge their § 924(c) firearm convictions.
A.

Background
Section 924(c) prohibits a person from using or carrying a firearm “during

37

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 40 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 38 of 47

and in relation to any crime of violence or drug trafficking crime” or possessing a
firearm “in furtherance of any such crime.” 18 U.S.C. § 924(c)(1)(A). Count 3
charged that Cannon and Holton used and carried a firearm during and in relation
to a crime of violence (the Hobbs Act robbery conspiracy in Count 1) and a drug
trafficking crime (the cocaine conspiracy in Count 2).
Before their 2016 trial, the defendants claimed that Hobbs Act robbery
conspiracy was not a crime of violence based on Johnson v. United States, 576
U.S. 591, 135 S. Ct. 2551 (2015), and moved the district court to dismiss that
predicate in Count 3. The district court denied the defendants’ motion and
submitted Count 3 to the jury with both predicates.
In 2019, while this appeal was pending, the Supreme Court in United States
v. Davis invalidated part of § 924(c)’s definition of a crime of violence, the socalled residual clause in § 924(c)(3)(B). Davis, 588 U.S. ___, 139 S. Ct. 2319,
2324–25, 2336 (2019). Thus, after Davis, for an offense to qualify as a crime of
violence it must satisfy § 924(c)(3)(A)’s elements clause. Davis did not, however,
affect the definition of a drug trafficking crime, which includes “any felony
punishable under the Controlled Substances Act.” See 18 U.S.C. § 924(c)(2).
Subsequently, this Court held that Hobbs Act robbery conspiracy does not
categorically qualify as a crime of violence under § 924(c)(3)(A)’s elements
clause. See Brown v. United States, 942 F.3d 1069, 1075 (11th Cir. 2019).

38

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 41 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 39 of 47

B.

Two Predicates in Count 3
On appeal, the defendants contend that because one of the two predicate

crimes in Count 3 is an invalid predicate, their § 924(c) convictions must be
vacated. The defendants do not dispute that the other predicate crime—the cocaine
conspiracy in Count 2—qualifies as a “drug trafficking crime” and remains a valid
predicate for Count 3. Even so, they argue that because the jury entered a general
verdict, we cannot know if the jury unanimously found their guns connected to the
now-invalid Hobbs Act robbery conspiracy predicate or the still-valid cocaine
conspiracy predicate.
First, we agree that it was error for the district court to deny the defendants’
motion to dismiss the predicate of Hobbs Act robbery conspiracy and to submit
that crime as a valid predicate in Count 3 for the jury’s consideration. Although
the trial occurred in 2016, the defendants timely raised the issue in the district court
and in this direct appeal, and Davis and Brown apply here. See United States v.
Curbelo, 726 F.3d 1260, 1266 (11th Cir. 2013) (explaining that the Supreme
Court’s new rule applies retroactively on direct appeal if a defendant preserved his
objection throughout the trial and appeal process). Further, it is error to instruct a
jury that it can convict on alternative theories of guilt, one of which is invalid.
Hedgpeth v. Pulido, 555 U.S. 57, 58, 129 S. Ct. 530, 530 (2008); see also Yates v.
United States, 354 U.S. 298, 312, 77 S. Ct. 1064, 1073 (1957), overruled on other

39

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 42 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 40 of 47

grounds by Burks v. United States, 437 U.S. 1, 98 S. Ct. 2141 (1978); Stromberg v.
California, 283 U.S. 359, 367-68, 51 S. Ct. 532, 535 (1931).
Nonetheless, the government contends that this error was harmless.12 The
error here is not structural and is subject to harmless-error review. See Hedgpeth,
555 U.S. at 61-62, 129 S. Ct. at 532 (holding instructional errors arising in the
context of multiple theories of guilt, one of which is invalid, are not structural
errors but are errors subject to harmless-error review);13 see also Skilling v. United
States, 561 U.S. 358, 414 & n.46, 130 S. Ct. 2896, 2934 & n.46 (2010). The
government, however, has the burden as to harmless error. See Neder v. United
States, 527 U.S. 1, 15, 119 S. Ct. 1827, 1837 (1999).
The harmless-error test “is whether it appears ‘beyond a reasonable doubt
that the error complained of did not contribute to the verdict obtained.’” Id.
(quoting Chapman v. California, 386 U.S. 18, 24, 87 S. Ct. 824, 828 (1967)).
Stated another way: “Is it clear beyond a reasonable doubt that a rational jury
would have found the defendant guilty absent the error?” Id. at 18, 119 S. Ct. at

12

Because the defendants in the district court raised the issue of whether Hobbs Act
robbery conspiracy qualifies as a crime of violence under § 924(c), we review that issue de novo.
See United States v. Bates, 960 F.3d 1278, 1285 (11th Cir. 2020).
13

In Hedgpeth, the Supreme Court further explained: “Both Stromberg and Yates were
decided before we concluded in Chapman v. California that constitutional errors can be
harmless. Accordingly, neither Stromberg nor Yates had reason to address whether the
instructional errors they identified could be reviewed for harmlessness, or instead required
automatic reversal.” 555 U.S. at 60, 129 S. Ct. at 532 (citation omitted).
40

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 43 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 41 of 47

1838; see also Delaware v. Van Arsdall, 475 U.S. 673, 681, 106 S. Ct. 1431, 1436
(1986) (“[A]n otherwise valid conviction should not be set aside if the reviewing
court may confidently say, on the whole record, that the constitutional error was
harmless beyond a reasonable doubt.”).
C.

Harmless Error
Here, the government has met its burden to show that this error as to Count 3

was harmless. If Hobbs Act robbery conspiracy were the only predicate for the
defendants’ § 924(c) firearm convictions, their convictions would be invalid and
would have to be vacated under Davis. But it wasn’t. The other predicate was the
still-valid cocaine conspiracy crime. Thus, there remains a valid predicate to
support the defendants’ § 924(c) convictions.
That alone does not end our harmless-error inquiry. The defendants argue
that the jury may have unanimously found the guns connected to the invalid Hobbs
Act robbery conspiracy but not to the still-valid cocaine conspiracy. Because there
was a general verdict, the defendants argue it is impossible to tell if the jury
unanimously agreed the guns were connected to the cocaine conspiracy. We
disagree because the trial record makes clear that the two predicate conspiracy
crimes were so inextricably intertwined that no rational juror could have found that
Cannon and Holton carried a firearm in relation to one predicate but not the other.
First, the indictment itself indicates the two conspiracies were intertwined

41

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 44 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 42 of 47

and coextensive. Count 1 charged that, between June 22, 2015, and November 13,
2015, Cannon, Holton, and Stubbs conspired to rob narcotics traffickers of their
cocaine. Correspondingly, Count 2 charged that, during that same time period, the
same three defendants also conspired to possess the same controlled substance,
cocaine, with the intent to distribute it.
Second, the jury found Cannon and Holton guilty of both the underlying
Hobbs Act robbery conspiracy charged in Count 1 and the underlying cocaine
conspiracy charged in Count 2. The jury’s guilty verdicts on both Counts 1 and 2
conclusively establish that the jury unanimously found beyond a reasonable doubt
that the defendants were conspiring to rob the stash house of cocaine so they could
then possess and distribute the cocaine themselves.
Third, while the two conspiracies had different elements, the trial evidence
established the same facts and time period underlying each crime. The cocaine the
defendants were planning to rob from the narcotics traffickers was the same
cocaine they were planning to possess with the intent to distribute. Undisputedly,
the goal of the robbery scheme was to steal cocaine from a stash house so they
could then distribute it themselves. And, on the day of the planned stash house
robbery, the defendants brought firearms to the prearranged meeting place because
they intended to use those firearms to take the cocaine from the armed guards at
the stash house. In other words, the defendants brought the firearms

42

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 45 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 43 of 47

simultaneously to rob the narcotics traffickers of cocaine and to take possession of
the cocaine. No reasonable juror could have found that Cannon and Holton carried
their firearms in relation to the Hobbs Act robbery conspiracy but not the cocaine
conspiracy. We thus can confidently say, on the whole record, that the error was
harmless beyond a reasonable doubt. See Neder, 527 U.S. at 15, 18, 119 S. Ct. at
1837, 1838; Van Arsdall, 475 U.S. at 681, 106 S. Ct. at 1436.
Before concluding, we review three other § 924(c) decisions where the
predicates also involved Hobbs Act robbery conspiracy and drug crimes. See In re
Navarro, 931 F.3d 1298 (11th Cir. 2019); In re Cannon, 931 F.3d 1236 (11th Cir.
2019); In re Gomez, 830 F.3d 1225 (11th Cir. 2016). Although these cases
occurred in the § 2255 context where the defendant carries the burden, they
illustrate the importance of the factual record in evaluating § 924(c) crimes after
Davis.
In In re Navarro, this Court concluded that the predicate crimes “seem[ed]
inextricably intertwined, given the planned robbery underlying the charge for
conspiracy to commit Hobbs Act robbery was the robbery of a [fake] drug stash
house.” 931 F.3d at 1302 n.2. The Court held that the drug-trafficking predicates
“independently supported” the defendant’s § 924(c) firearm conviction because the
record—the factual proffer supporting his guilty plea—established that he
committed the drug crimes and carried a firearm in relation to them. Id. at 1300,

43

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 46 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 44 of 47

1302-03 (denying defendant’s application to file a successive § 2255 motion). The
Court pointed out that it was “difficult to imagine how Navarro could have
admitted facts supporting a conspiracy to commit Hobbs Act robbery without
simultaneously admitting facts supporting one or both of the drug-trafficking
crimes.” Id. at 1302 n.2. There was no uncertainty as to which of the three
predicates underlay the § 924(c) conviction because the plea agreement and factual
proffer made clear the conviction was based on all three. Id. at 1303 n.4. The
Court held Navarro had not made the required “prima facie” showing on his Davis
claim. Id. at 1303.
In contrast, when there is only a limited record before the Court, it may be
unclear which crime served as the predicate. For example, In re Cannon involved
ten § 924(o) predicates, including two carjackings, two Hobbs Act robberies, four
drug crimes, a drug conspiracy, and a conspiracy to commit Hobbs Act robbery.
931 F.3d at 1239, 1243. The Court observed that “the predicate crimes seem[ed]
inextricably intertwined,” but determined the defendant made a “prima facie”
showing under § 2255(h)(2) because it was “somewhat unclear,” based on “the
limited record” before the Court, which crime or crimes served as § 924(o)
predicates. Id. at 1243. The Hobbs Act robbery and drug conspiracies had lasted
three months, and the substantive crimes were committed during home invasions
on two separate days. Id. at 1239. Therefore, the Court granted Cannon’s

44

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 47 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 45 of 47

application to file a successive § 2255 motion so that the district court could
review the trial record and address whether the predicate crimes were “inextricably
intertwined.” Id. at 1244.
Similarly, in In re Gomez, we discussed the dangers of a general jury verdict
and the limited record before us and determined the defendant had made a “prima
facie” showing to file a successive § 2255 motion. 830 F.3d at 1227–28. Count 5
charged that Gomez used the firearm “during two drug trafficking offenses and an
attempted Hobbs Act robbery on the same day, as well as an ongoing conspiracy to
commit Hobbs Act robbery that lasted two weeks.” Id. at 1227. Lacking the trial
record, the Court surmised that “the evidence may . . . have shown that he left that
firearm at home for the drug trafficking crimes, or the attempted robbery” and may
have possessed the firearm only “at some point during the Hobbs Act conspiracy.”
Id. At this “prima facie” stage, the Court concluded that “we can only guess which
predicate the jury relied on,” and that “half of the jury may have believed that
Gomez used the gun at some point during his Hobbs Act conspiracy, and the other
half that he did so only during the drug trafficking offense.” Id. at 1226, 1228.
Here, we have a complete factual record, and the trial testimony and
recordings established definitively that Cannon and Holton brought firearms in
their car to the prearranged meeting place on the day of the planned stash house
robbery in order to use them to steal the cocaine from the armed guards and to take

45

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 48 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 46 of 47

possession of the cocaine so they could distribute it themselves. In addition, the
district court instructed the jury that it “must be unanimous as to whether the
United States ha[d] proven that the Defendant used or carried a firearm during and
in relation to a violence crime or a drug trafficking crime or both.” Given that we
must presume the jury followed the court’s unanimity instruction, we know that it
is not possible some of the jurors found that the defendants carried a firearm only
during the Hobbs Act robbery conspiracy, while some other jurors found that they
did so only during the cocaine conspiracy.14
In sum, the trial record makes clear the Hobbs Act robbery conspiracy
predicate was inextricably intertwined with the cocaine conspiracy predicate, both
of which were proven to the jury beyond a reasonable doubt. Therefore, despite
the general verdict as to Count 3, the record, as a whole, shows that the jury

14

At trial, the defendants requested a special verdict as to which predicate in Count 3 or
both were the basis for the § 924(c) conviction. The defendants never claimed that Count 3 was
duplicitous for charging two separate and distinct crimes in one count that must be set forth in
separate counts. For the first time on appeal, Holton claims Count 3 was duplicitous; so we
review that issue for plain error. See United States v. Deason, 965 F.3d 1252, 1267 (11th Cir.
2020).
A count in an indictment is duplicitous if it charges two or more separate and distinct
offenses. United States v. Schlei, 122 F.3d 944, 977 (11th Cir. 1997). Holton does not explain
why § 924(c) sets forth two separate and distinct crimes as opposed to one crime with alternative
predicates. And In re Gomez has no holding on the duplicity issue as to § 924(c). In any event,
we need not decide the duplicity issue because Holton has not shown the error, if any, was plain
or that it prejudiced him. See Deason, 965 F.3d at 1267-68 (stating to show duplicity error
affected defendant’s substantial rights, he must show there was “a reasonable probability that the
jury did not unanimously” agree on a single offense). As set forth above, the predicate crimes
are so inextricably intertwined, no reasonable juror could have found the defendants carried a
firearm in relation to one but not the other.
46

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 49 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 47 of 47

unanimously found that Cannon and Holton used and carried a firearm during and
in relation to a conspiracy to possess cocaine with intent to distribute, a drug
trafficking crime unaffected by Davis. Thus, the government has carried its burden
of showing harmless error. Accordingly, Cannon and Holton’s challenge to their
§ 924(c) convictions on Count 3 fails.
X. CONCLUSION
For the reasons above, we affirm Cannon’s and Holton’s convictions and
sentences.

47

Case 1:15-cr-20923-UU Document 174 Entered on FLSD Docket 03/04/2021 Page 50 of 50
USCA11 Case: 16-16194 Date Filed: 02/03/2021 Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 16-16194
ERRATA
________________________
D.C. Docket No. 1:15-cr-20923-UU-1

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
LANCE CANNON,
VINCENT HOLTON,
Defendants-Appellants.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
The opinion has been changed as follows:
In footnote 3 on page 14, the underline after the word “See” has been
removed.
On page 39, the case name “United States v. Cubelo” has been corrected to
“United States v. Curbelo.”

Case 1:15-cr-20923-UU Document 134 Entered on FLSD Docket 09/16/2016 Page 1 of 6
USDCFLSD 2458(Rev.09/08)-JudgmentinaCriminalCase

Pagelof6

U nited States D istrict C ourt
Southern D istrictofFlorida
M IAM IDIVISION

UNITED STATES O F AM ERICA

JUDG M ENT IN A CRIM INAL CASE
Case Num ber-1:15-20923-CR-UN GARO-

VINCENT H O LTO N

USM Number:25634-083
CounselForDefendant:GregorySamms,Esq.
CounselForTheUnitedStates:Jam ieGalvin.AUSA
CourtReporter:W illiam Romanishin

ThedefendantfoundguiltytoCountts)OneThroughFourofthelndictment.
Thedefendantisadjudicatedguiltyofthefollowingoffensets):
TITLE/SECTIO N
NU M BER

NATUR E O F
O FFENSE

OFFEN SE ENDED

CO UNT

Title18USC l951(a)

Conspiracytocom m it
HobbsActrobbery

11/13/15

One

Title21USC 846,

Conspiracytopossessw ith

l1/l3/15

Two

841(b)(1)(A)(ii)and851(a) intenttodistributetive
kilogram sorm oreof
cocaine

Titlel8USC 924(c)(l)(A)

Title l8 USC 922(g)(1)

Possessionofafirearm

Three

Felon inpossession ofa

Five

during in and in relation to
crimeofviolenceordrug
tram cking crime
firearm andamm unition

Thedefendantissentencedasprovided inthefollowingpagesofthisjudgment. Thesentenceisimposedpursuanttothe
Sentencing Reform A ctofl984.

Itisorderedthatthe defendantmustnotify theUnited Statesattorney forthisdistrictwithin 30 daysofany change ofname,

residence,ormailingaddressuntilal1fines,restitution,costsandspecialassessmentsimposedbythisjudgmentarefullypaid.
Iforderedtopayrestitution,thedefendantmustnotifythecourtandUnitedStatesattorneyofanymaterialchangesineconomic
circum stances.
Dateoflm positionofSentence:
9/9/2016

A-2

U RSULA U NGARO
United StatesD istrictJudge
Septem ber

,20l6

Case 1:15-cr-20923-UU Document 134 Entered on FLSD Docket 09/16/2016 Page 2 of 6

DEFEN DANT:VIN CEN T HOLTON
CASE NUM BER:l:15-20923-CR-UNGARO-

IM PR ISO N M E NT
Thedefendantisherebyconzmitted tothecustody oftheUnited StatesBureauofPrisonstobeimprisonedforaterm

ofTW O HUNDRED AND FORTY (240)M ONTHSastoCountsOneandTwo,ONEHUNDRED AND TW ENTY (120)
M ONTHSastoCountFiveaIIto beserved CONCURRENTLY toeachother.SIXTY(60)M ONTHS asto CountThree
tobeserved CO NSECUTIV ELY to CountsO ne,Tw o,and Five foratotalterm ofim prisonm entof300M O NTH S.
TheCourtmakesthefollowingrecom m endationsto theBureauofPrisons:
l.RDA P
2.A facility in theSouthG eorgia

Thedefendantisremanded to thecustody ofthe United StatesM arshal.

R ETU RN

lhaveexecutedthisjudgmentasfollows:

Deftndantdelivered on

to

UN ITED STATES M ARSHAL
By:

Deputy U .S.M arshal

Case 1:15-cr-20923-UU Document 134 Entered on FLSD Docket 09/16/2016 Page 3 of 6
USDC FLSD 2458 (Rev 09/08)-JudgmentinaCriminalCase

Pagt3of6

DEFENDANT:VINCENT HOLTON
CA SE N UM BER:1:15-20923-CR-UNG ARO -

SUPER V ISED R ELEA SE
Upon releasefrom imprisonm ent,thedefendantshal
lbeonsupervisedreleaseforaterm ofTHREE (3)YEARSastoCounts

One,Three,and FiveaIItobeservedCONCURRENTLY toeachotherandTEN (10)YEARSastoCountTwotobe
served C ON CURR ENTLY toCountsO ne,Three,and Five.

Thedefendantmustreporttotheprobationofficeinthedistricttowhichthedefendantisreleasedwithin72hoursofreleasefrom
thecustody oftheBureauofPrisons.
Thedtftndantshallnotcommitanotherfederal, stateorlocalcrim e.
The defendantshallnotunlawfully possessa controlled substance. The defendantshallrefrain from any unlawfuluse ofa
controlled substance.Thedefendantshallsubmitto onedrugtestwithin 15daysofreleasefrom imprisonmentandatleasttwo
periodicdrugteststhereaûer,asdetenninedby thecourt.
Thedefendantshallnotpossessa firearm ,am m unition,destructivedevice, orany otherdangerousweapon.
Thedefendantshallcooperate inthecollection ofDNA asdirected by theprobationofficer.

lfthisjudgmentimposesafineorarestitution,itisaconditionofsupervisedreleasethatthedefendantpayinaccordance
withtheScheduleofPaymentssheetofthisjudgment.
Thedefendantmustcomplywiththestandardconditionsthathavebeenadopted by thiscourtaswellasany additional
conditionson theattachedpage.

ST AN D AR D C O ND ITIO N S O F SUPE RV ISIO N
thedefendantshallnotleavethejudicialdistrictwithoutthepennissionofthecourtorprobationofticer;

thedefendantshallreporttotheprobation officerandshallsubmitatruthfulandcompletewritten reportwithinthefirstfiheendays
ofeachmonth;
thedefendantshallanswertruthfully allinquiriesbytheprobation oftkerand follow the instructionsoftheprobation oftker;
thedefendantshallsupporthisorherdependentsandmeetotherfamilyresponsibilities;
thedefendantshallwork regularly ataIawfuloccupationsunlessexcused by theprobation ofticerforschooling,training,orother
acceptablereasons;

thedefendantshallnotifytheprobationoftsceratleastten(10)dayspricrtoanychangeinresidenceoremployment;
the defendantshallrefrain from the excessive use ofalcoholand shallnotpurchase, possess,use.distribute,oradministerany
controlled substanceorany paraphernalia relatedto any controlled substances,exceptasprescribed by aphysician;
the defendantshallnotfrequentplaceswhere controlled substancesare illegallysold, used,distributed,oradministered;
thedefendantshallnotassociatewith any personsengaged in criminalactivity and shallnotassociatewith any person convictedof
a felony,unlessgrantedpermissionto do so by theprobation officer;
thedefendantshallpcrmitaprobation officerto visithim orheratany timeathomeorelsewhereandshallpermitcontiscation of
any contraband observed in plain view bytheprobation officer;

thedefendantshallnotifytheprobationofticerwithinseventy-two(72)hoursofbeingarrestedorquestionedbyaIaw enforcement
officec
the defendantshallnotenterinto any agreementto actasan informeroraspecialagentofa Iaw enforcementagency withoutthe
permission ofthecourt;and
asdirectedbytheprobationofticer,thedefendantshallnotifythirdpartiesofrisksthatmaybeoccmsionedbythedefendant'scriminal
record orpersonalhistory orcharacteristicsand shallpermitthe probation ofticerto makesuch notificationsand to confirm the
defendant'scompliance with such notification requirement.

Case 1:15-cr-20923-UU Document 134 Entered on FLSD Docket 09/16/2016 Page 4 of 6
USDC FLSD 2458(Rev 09/08)-Judgmentina.CriminalCase

Pue4of6

DEFENDAN T:V IN CEN T HOLTON
CASE NUM BER:l:15-20923-CR-tJNGARO-

SPECIAL CONDITIONS OF SUPERVISIO N
Thedefendantshallalsocomply with the followingadditionalconditionsofsupervisedrelease:
Perm issibleSearch-Thedefendantshallsubm ittoasearchofhis/herpersonorpropertyconducted inareasonablem annerand
atareasonabletimebytheU.S.ProbationOfficer.

Self-EmploymentRestriction -Thedefendantshallobtainpriorwrittenapprovalfrom theCourtbeforeentering intoanyselfemployment.
SubstanceAbuseTreatment-Thedefendantshallparticipateinan approvedtreatmentprogram fordrugand/oralcoholabuse
andabidebyal1supplem entalconditionsoftreatm ent. Participationmay includeinpatient/outpatienttreatment. Thedefendant

willcontributetothecostsofservicesrendered(co-payment)basedonabilitytopayoravailabilityofthirdpartypayment.

AngerControl/DomesticViolenceTreatment-The defendantshallparticipate in an approvedtreatmentprogram foranger
control/domesticviolence.Participation may includeinpatient/outpatienttreatment. Thedefendantwillcontributetothecosts

ofservicesrendered(co-payment)based on abilitytopay oravailability ofthirdparty payment.

Case 1:15-cr-20923-UU Document 134 Entered on FLSD Docket 09/16/2016 Page 5 of 6
USDC FLSD 2458(Rev. 09/08)-JudgmentinaCriminalCase

Page5of6

DEFENDANT:VINCENT HOLTON
CASE NUM BER:l;15.20923,CR-UNGARO .

CRIM INAL M O NETARY PENALTIES
The defendantmustpay the totalcriminalmonetary penaltie
P
s underthe schedule ofpaymentson the Schedule of
aym entssheet.
TotalA ssessment

TotalFine

TotalRestitution

$400.00

$

$

#FindingsforthetotalamountoflossesarercquiredunderChapters109A,110,1l0A
nd ll3A ofTitl
e l8s United StatesCode, forofftnstscommitttdon
,a
orafterSeptemberl3, 1994.butbeforeApril23, 1996.

Case 1:15-cr-20923-UU Document 134 Entered on FLSD Docket 09/16/2016 Page 6 of 6
USDC FLSD 2458(Rev 09/08)-JudgmentinaCriminalCase

Page6of6

DEFENDANT:VINCENT HOLTON
CASE NUM BER:1:15.20923-CR-UNGARO-

SCHEDULE OF PAYM ENTS
Havingassessedthedefendant'sabilitytopay, paymentofthetotalcriminalmonetarypenaltiesaredueasfollows:
Lump sum paymentof$ dueimmediately,balancedue

Unlessthecourthasexpresslyorderedotherwise,ifthisjudgmentimposesimprisomnent,paymentofcriminalmonetarypenalties

isdueduringimprisonment.Allcriminalmonetarypenalties,exceptthosepaymentsm adethroughtheFederalBureauofPrisons'
InmateFinancialResponsibility Program,aremadetotheclerk ofthecourt.
Thedefendantshallreceivecreditforallpaymentspreviouslymadetowardany crim inalmonetarypenaltiesimposed.
Theassessm ent/fine/restitution ispayabletotheC LERK ,UNITED STATES CO URTS and isto beaddressedto:

U.S.CLERK 'S OFFICE
ATTN:FINANC IA L SECTIO N
400 NORTH M IAM IAVENUE,ROOM 8N09
M IA M I,FLO RIDA 33128-7716
Theassessm ent/fine/restitution ispayableim m ediately.TheU.S.BureauofPrisons,U.S.ProbationO ffkeand theU.S.
Attorney'sO fficeareresponsiblefortheenforcem entofthisorder.

Forfeiture ofthe defendant'sright,title and interestin certain property ishereby ordered consistentwith the plea
agreementofforfeiture.TheUnited Statesshallsubmitaproposed orderofforfeiturewithin threedaysofthisproceeding.

Paymentsshallbeappliedinthefollowingorder:(l)assessment,(2)restitutionprincipal,(3)restitutioninterest,(4)fineprincipal,
(5)5neinterest,(6)communityrestitution,t7)penalties,and(8)costs,includingcostofprosecutionandcourtcosts.

Case 1:15-cr-20923-UU Document 126 Entered on FLSD Docket 08/14/2016 Page 1 of 5
	  

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO.: 15-20923-CR-UNGARO
UNITED STATES OF AMERICA,
Plaintiff,
vs.
VINCENT HOLTON,
Defendant.
______________________________/

DEFENDANTS' OBJECTIONS TO THE PRESENTENCE
INVESTIGATION REPORT

COMES NOW the defendant, Vincent Holton, by and through undersigned
counsel and respectfully files his Objections To The Pre-sentence Investigation Report,
dated August 5, 2016 and as grounds therefore would state:
I.

Factual Objections.
1.

Objection to ¶ 4: In ¶ 4 of the PSI, it indicates that the co-defendant
Cannon had a number of meetings with a CI and that during these
conversations Cannon made reference to the fact that he had “muscle” for
anything that the CI needed. It further states that the CI understood this to
mean that the defendants wanted to do drug robberies. The facts at the trial
1	  

	  

A-3

Case 1:15-cr-20923-UU Document 126 Entered on FLSD Docket 08/14/2016 Page 2 of 5
	  

demonstrated that the idea of a drug robbery was entirely the creation of the
CI who was paid for his services of setting up defendants. The paragraph
should reflect clearly that the idea of a drug robbery was totally the CI’s
and not defendant Holton. In addition Holton never advised the CI that he
had “muscle” that was the sole statement of the co-defendant Cannon.
2.

Substantive Objections.
1. Objection to ¶ 90 Statutory Provisions.

The PSI states that under 18 U.S.C. 924(c) the defendant is to be sentenced to a
mandatory 5 year consecutive sentence. The indictment contains language that forms the
basis for the enhancement in count III which states that defendant Holton; “did
knowingly use and carry a firearm during and in relation to a crime of violence, that is, a
violation of Title 18, United States Code, Section 1951 (a), as set forth in Count 1 of this
Indictment, and during and in relation to a drug trafficking crime, that is, a violation of
Title 21, United States Code, Section 846, as set forth in Count 2 of this Indictment,
which are offenses for which the defendants may be prosecuted in a court of the United
States, and did possess a firearm in furtherance of such crimes, in violation of Title l 8,
United States Code, Sections 924(c)(1)(A) and 2.
This objection challenges whether the crime of conspiracy to commit a Hobbs Act
robbery is a predicate offense under the crime of violence prong of 924 (c).

§

924(c)(1)(A) provides for a separate consecutive sentence if any person uses or carries a
firearm during and in relation to a crime of violence or drug trafficking crime, or

2	  
	  

Case 1:15-cr-20923-UU Document 126 Entered on FLSD Docket 08/14/2016 Page 3 of 5
	  

possesses a firearm in furtherance of such crimes, as follows:
Except to the extent that a greater minimum sentence is otherwise provided by this
subsection or by any other provision of law, any person who, during and in relation to
any crime of violence or drug trafficking crime (including a crime of violence or drug
trafficking crime that provides for an enhanced punishment if committed by the use
of a deadly or dangerous weapon or device) for which the person may be prosecuted
in a court of the United States, uses or carries a firearm, or who, in furtherance of any
such crime, possesses a firearm, shall, in addition to the punishment provided for
such crime of violence or drug trafficking crime—(i) be sentenced to a term of
imprisonment of not less than 5 years; (ii) if the firearm is brandished, be sentenced
to a term of imprisonment of not less than 7 years; and (iii) if the firearm is
discharged, be sentenced to a term of imprisonment of not less than 10 years.
18 U.S.C. § 924(c)(1)(A). For the purposes of § 924(c), § 924(c)(3)(A) and (B) define
"crime of violence" as an offense that is a felony and:
(A) has as an element the use, attempted use, or threatened use of physical force
against the person or property of another, or
(B) that by its nature, involves a substantial risk that physical force against the person
or property of another may be used in the course of committing the offense.
In the case of In Re Pinder, 2016 U.S. App. LEXIS 10031; 26 Fla. L. Weekly Fed. C 352
(11th Cir 2016), the Eleventh Circuit considered whether a companion charge of conspiracy

to commit Hobbs Act robbery might qualify as a crime of violence under § 924(c). Id. at
*4 n.1. Because it was not clear whether conspiracy to commit Hobbs Act robbery
qualified as a crime of violence under § 924(c), the Eleventh Circuit concluded that the
applicant for a successive 2255 motion, had made a prima facie case that Johnson
impacted the validity of his § 924(c) conviction. Id. The defendant in Pinder claims that
the 924(c) definition of crime of violence is unconstitutional in light of Johnson v. United
States, 576 U.S.

, 135 S. Ct. 2551 (2015), which held that the phrase "involves conduct

that presents a serious potential risk of physical injury to another" in 18 U.S.C. §
3	  
	  

Case 1:15-cr-20923-UU Document 126 Entered on FLSD Docket 08/14/2016 Page 4 of 5
	  

924(e)(2)(B)(ii) is unconstitutionally vague. The Supreme Court has held that the rule
announced in Johnson applies retroactively on collateral review. See Welch v. United
States, 578 U.S.

,

, 136 S. Ct. 1257, 1268, L. Ed. 2d 387 (2016).

The Eleventh Circuit hasn't decided if Johnson applies to § 924(c)(3)(B). However,
the language in § 924(c) and § 924(e) is very similar. Pinder at n.1. Pinder questioned
whether the elements of a Hobbs Act conspiracy meet the Johnson definition of a crime
that categorically is a crime of violence. In the case sub judice the defendant is charged
with a Hobbs conspiracy. Until it is definitively decided that a Hobbs Act robbery is a
crime of violence, the district court should find that a Hobbs Act robbery is not a crime of
violence under § 924(c). The elements of a Hobbs Act Robbery are that (1) two or more
people agreed to commit a Hobbs Act robbery; (2) that the defendant knew of the
conspiratorial goal; and (3) that the defendant voluntarily participated in furthering that
goal." These elements do not categorically mean that in order to commit a Hobbs Act
conspiracy the physical violence necessary for a crime of violence as defined by Johnson
has been met. Therefore a Hobbs Act robbery does not qualify as a predicate offense for
an enhancement under § 924(c). As such the court would have to determine if any other
convictions under the indictment would trigger the § 924 (c) enhancement.
WHEREFORE, the defense respectfully requests that the objections to the PSI are
granted by the court and that the PSI be adjusted to reflect the aforementioned objections.

4	  
	  

Case 1:15-cr-20923-UU Document 126 Entered on FLSD Docket 08/14/2016 Page 5 of 5
	  

I HEREBY CERTIFY that a true and correct copy of the foregoing was provided
to all counsel of record through the auspices of CM/ECF on this 14th day of August,
2016.
Respectfully Submitted,

s/ Gregory A. Samms
225 Alcazar Avenue
Coral Gables, Florida 33134
Tel:

(786) 953-5802

Fax: (786) 513-3191

By:

s/Gregory A. Samms
______________________________
GREGORY A. SAMMS, ESQ.
Fla. Bar No.: 438863
sammslaw@gmail.com

5	  
	  

CERTIFICATE OF COMPLIANCE
I Hereby Certify that that this Petition is in compliance with Rule 33 of the
Supreme Court Rules of Procedure and contains 8,893 words.

